<html>
<title> - HEZBOLLAH IN LATIN AMERICA--IMPLICATIONS FOR U.S. HOMELAND SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






  HEZBOLLAH IN LATIN AMERICA--IMPLICATIONS FOR U.S. HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2011

                               __________

                           Serial No. 112-35

                               __________

       Printed for the use of the Committee on Homeland Security


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-255 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2205  Mail: Stop SSOP, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
           Michael J. Russell, Staff Director/General Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Henry Cuellar, Texas
Ben Quayle, Arizona                  Brian Higgins, New York
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
              Stephen Vina, Minority Subcommittee Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3

                               Witnesses

Mr. Roger F. Noriega, Visiting Fellow, The American Enterprise 
  Institute:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Douglas Farah, Senior Fellow, The International Assessment 
  and Strategy Center:
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Mr. Ilan Berman, Vice President, American Foreign Policy Council:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28
Ms. Melani Cammett, Associate Professor of Political Science and 
  Director, Middle East Studies Program, Brown University:
  Oral Statement.................................................    34
  Prepared Statement.............................................    35

 
  HEZBOLLAH IN LATIN AMERICA--IMPLICATIONS FOR U.S. HOMELAND SECURITY

                              ----------                              


                         Thursday, July 7, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:54 p.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Cravaack, Speier, Cuellar, 
Higgins, and Hochul.
    Also present: Representatives Duncan and Green.
    Mr. Meehan. Good afternoon, and thank you for your patience 
and your recognition of the requirement that the first 
responsibility we have to do is to be on the floor to vote. But 
I am very appreciative of all of our witnesses.
    The Homeland Security Committee Subcommittee on 
Counterterrorism and Intelligence will come to order. The 
subcommittee is meeting today to hear testimony on the threat 
to the U.S. homeland as a result of Hezbollah operations in 
South and Central America.
    I would also like, before we begin, unanimous consent to 
sit and question a witness. I ask unanimous consent that the 
gentleman from Texas, Mr. Green be authorized to sit for the 
purpose of questioning witnesses during the hearing.
    Okay. Today's hearing is the fourth subcommittee hearing 
aimed at educating Members of the myriad of terrorist threats 
to the homeland from various parties of the world. So far we 
have heard from experts that have--on the threat posed by AQAP 
in Yemen, the terrorist threat emanating from Pakistan, and the 
ramifications of unrest in the Middle East and North Africa on 
U.S. counterterrorism efforts.
    Today we will dive deeper into Hezbollah's growing 
operation in Latin America and what the implications are for 
the United States homeland security. Hezbollah is one of the 
most sophisticated global terrorist organizations in the world, 
and as Members of Congress, particularly on this subcommittee 
and this committee, it is incumbent upon us to do everything we 
can to understand that threat.
    As a former United States attorney in Philadelphia, I 
initiated investigations into terrorist activities, but it 
included Hezbollah activities that had a direct connection to 
Latin America. These investigations exposed Hezbollah's vast 
network throughout the region and ended in convictions.
    The U.S. intelligence community and law enforcement have 
been concerned about the terrorist threat emanating from the 
Tri-Border area which connects Argentina, Brazil, and Paraguay 
in South America. So the nexus of Hezbollah to the U.S. 
homeland security is certainly without question.
    It is important to remember that before September 11, 
Hezbollah, not al-Qaeda, was responsible for more American 
deaths than any other terrorist organization. Doing everything 
we can to ensure that Hezbollah does not have a staging ground 
and a safe haven in Latin America is vitally important.
    Indeed, it was former Homeland Security Secretary Michael 
Chertoff who warned that while Hezbollah, ``makes al-Qaeda look 
like a minor league team,'' it poses the greatest threat to 
American National security.
    We really want to hear the intentions and the impressions 
of the panel here today to help us try to get a real accurate 
assessment of what we think Hezbollah means in Latin America 
and its relationship to the United States. It is also worth 
noting that Hezbollah has been operationally active in Latin 
America. Most notoriously is the group being implicated in the 
1992 attack on the Israeli Embassy in Buenos Aires, and 2 years 
later at the Argentine Jewish Mutual Association building in 
Buenos Aires, attacks which killed and injured hundreds of 
civilians.
    Regardless of the circumstances which may lead Hezbollah to 
launch an attack on the homeland, Hezbollah is already working 
with like-minded allies and hostile regimes in Latin America to 
undermine American National security by raising funds, 
spreading anti-American and anti-Israeli propaganda, recruiting 
operatives, laundering money, and smuggling weapons and drugs, 
all activities that have a direct impact on the United States 
homeland security.
    Moreover, the alliance between one of the most dangerous 
terrorist organizations in the world, Hezbollah, the No. 1 
state sponsor of terrorism in Iran, a sworn enemy of the United 
States, and Venezuela, all in the backyard of the United 
States, when you put that together, you have a fully 
functioning, easily accessible terrorist network with a ready 
capacity to act, if so inclined.
    So it is with this background in mind that we are 
attempting to create awareness and to have a frank examination 
to gauge the full threat of the nature of this threat to the 
homeland. So I look forward to hearing from today's witnesses.
    I would like to do, as well, if she should come in to 
attendance, I would like to acknowledge the newest Member of 
our subcommittee, the gentlelady from New York Ms. Hochul, and 
I welcome her to the subcommittee.
    I would also like to extend recognition that Congresswoman 
Ros-Lehtinen and her Committee on Foreign Affairs have been 
looking at much the same issue with great impact.
    [The statement of Chairman Meehan follows:]
             Prepared Statement of Chairman Patrick Meehan
    Hezbollah is one of the most sophisticated global terrorist 
organizations in the world. It is the responsibility of this 
subcommittee to examine threats of possible terrorist attacks. We must 
remember that before September 11, Hezbollah--not al-Qaeda--was 
responsible for more American deaths than any other terrorist 
organization. Today's hearing was a significant step toward enhancing 
awareness about Hezbollah's activities in Latin America and 
understanding this very serious threat to Americans here at home.
    Law enforcement and the intelligence community have long been 
concerned about the terrorist threat emanating from the Tri-Border area 
connecting Argentina, Brazil, and Paraguay in South America. It has 
been widely reported that Hezbollah is working with like-minded allies 
and hostile regimes in Latin America to undermine American National 
security. Its activities include skirting United States sanctions, 
raising funds, spreading anti-American and anti-Israeli propaganda, 
recruiting operatives, laundering money, and smuggling weapons and 
drugs. The growing nexus between international terror networks and 
drug-trafficking organizations throughout Latin America is a dynamic 
and emerging issue facing the counterterrorism and intelligence 
community.
    While serving as U.S. Attorney for the Eastern District of 
Pennsylvania, Congressman Meehan initiated investigations into 
Hezbollah's activities in Philadelphia that had direct connections to 
Latin America. These investigations exposed Hezbollah's vast networks 
throughout the region and ended in convictions.
    The witnesses at today's hearing included: the Honorable Roger 
Noriega, Visiting Fellow, American Enterprise Institute for Public 
Policy Research; Mr. Douglas Farah, Senior Fellow Financial 
Investigations and Transparency, International Assessment and Strategy 
Center; Mr. Ilan Berman, Vice President, American Foreign Policy 
Council; and Dr. Melani Cammett, Director, Middle East Studies Program, 
Brown University.
    This is the fourth hearing the subcommittee has held aimed at 
educating Members about the myriad terrorist threats to the homeland 
from various parts of the world. Earlier this year, the subcommittee 
heard from experts on the threat posed by AQAP in Yemen, the terrorist 
threat emanating from Pakistan and the ramifications of unrest in the 
Middle East and North Africa on U.S. counterterrorism efforts.

    Mr. Meehan. So at this point in time I would like to 
recognize the Ranking Member of the subcommittee, the 
gentlewoman from California, Ms. Speier, for any comments she 
may have.
    Ms. Speier. Mr. Chairman, thank you, and thank you to our 
distinguished panelists for joining us today on a topic that I 
think is very worthy of our consideration.
    Hezbollah has been linked to some of the most horrific 
terrorist attacks against the United States, including two 
bombings in 1983 against the U.S. Embassy and the U.S. Marine 
barracks in Beirut, which together killed hundreds of 
Americans.
    Hezbollah has close ties to Iran and Syria, two state 
sponsors of terrorism, and many have accused the group of 
acting as an Iranian proxy militia for attacks against Israel 
and other U.S. allies. Just as troubling, Hezbollah makes 
extensive use of the large Lebanese communities in the Western 
Hemisphere to help finance its operations through both legal 
and illegal means.
    The group reportedly conducts extensive illicit financing 
activities in Latin America, including drug trafficking, 
counterfeiting, and contraband smuggling. The epicenter of 
these activities is the Tri-Border Area, an undergoverned 
border region where Brazil, Argentina, and Paraguay meet, where 
the local law enforcement authorities have been unable to 
counter the activities of numerous terrorists and criminal 
organizations.
    While we know Hezbollah raises money in Latin America, we 
do not know the true extent of its operations. How much funding 
does Hezbollah truly receive from its activities, both legal 
and illegal, in Latin America?
    We also do not know the true impact of Iranian influence on 
Hezbollah's activities in the region, particularly in 
Venezuela, where President Chavez continues to strengthen ties 
with Iran.
    We also know that Hezbollah's activities are not confined 
to South America. It has sympathizers that have been linked to 
a variety of smuggling and fundraising activities here in the 
United States. In 2002, for example, a large cigarette-
smuggling ring in North Carolina was disrupted. The cell had 
been sending proceeds from its smuggling operations to 
Hezbollah since at least 1995.
    More recently, in 2007, the Treasury Department imposed 
sanctions against several ``charitable'' organizations in the 
United States for serving as fronts to support Hezbollah and 
Iran.
    These cases illustrate the broad network that Hezbollah has 
established in the Western Hemisphere to finance its 
activities. Though Hezbollah's supporters continue to provide 
financial and moral aid from the Western Hemisphere, it is 
worth noting that the State Department's 2009 Country Reports 
on Terrorism indicate that there are no known Hezbollah-related 
operational cells in this hemisphere. It is important to 
discover whether this is still the case.
    Back in Lebanon, Hezbollah continues to be important, 
integrated into the Lebanese society, providing important 
social services and holding key positions in government. At the 
same time, four Hezbollah members were just indicted by the 
Special Tribunal for Lebanon for their possible connection to 
the 2005 assassination of former Prime Minister of Lebanon, 
Rafiq Hariri. We do not know how these developments in Lebanon 
may disrupt the fragile peace there, or whether they will 
encourage Hezbollah to turn to terrorism and attack Israel.
    In Syria, protests continue to threaten the Assad regime, a 
regime that has been providing financial and logistical support 
to Hezbollah for some time. As with the special tribunal, it is 
difficult to gauge how the Syrian unrest may affect Hezbollah, 
if President Assad is ousted, with a new regime less supportive 
of Hezbollah and Iran provokes the group into action, 
particularly if the United States supports peace efforts. Would 
regime instability in Syria increase or decrease Hezbollah's 
operational capabilities and influence in the region?
    With all this uncertainty, we are left asking whether the 
group is still the ``A Team'' of terrorists, as Deputy 
Secretary of State Richard Armitage suggested in 2003, or 
whether it is evolving into something else. Some of our 
witnesses' testimonies suggest Hezbollah is probably not 
currently directly targeting the U.S. homeland. So the question 
then is, what events could change that calculus among 
Hezbollah's leaders?
    As the events in the Middle East and the Arab Spring 
continue to unfold, we must keep a close eye on Hezbollah's 
strategies and ensure we have the intelligence and resources to 
respond to the changing threat environment here at home and 
globally.
    So, again, I would like to welcome our distinguished 
witnesses, and I look forward to gaining many insights from 
you. I also want to welcome our newest Member, Ms. Hochul, from 
the great State of New York, to our subcommittee. I yield back.
    Mr. Meehan. Thank you, Ms. Speier.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    I would also like, at this time, to ask unanimous consent 
that the gentleman from South Carolina, Mr. Duncan be 
authorized to sit for the purpose of the questioning of 
witnesses during the hearing.
    Hearing none, welcome, Mr. Duncan.
    We are pleased to have four distinguished witnesses before 
us today on this important topic. Let me remind each of you, we 
strive to try to take this remarkably complex issue and put it 
down to 5 minutes. But I know you will do your best to 
summarize your testimony. Ideally, we will be able to explore 
the concepts that you raise.
    Today's first witness is former Ambassador Roger Noriega. 
Ambassador Noriega is a former U.S. ambassador to the 
Organization of American States and also served as Assistant 
Secretary of State for the Western Hemisphere Affairs in the 
George W. Bush administration. Prior to that he worked here in 
Congress on the staffs of the House International Relations 
Committee and the Senate Foreign Affairs Committee.
    Presently he is a visiting fellow with the American 
Enterprise Institute and has written exhaustively on a variety 
of issues in Latin America and on AEI's Latin America Outlook 
series, using the breadth of his experience to provide 
commentary on the pressing regional and security issues and how 
they affect U.S. interests.
    Ambassador Noriega, welcome back to Capitol Hill. You are 
now recognized to summarize your testimony.

 STATEMENT OF ROGER F. NORIEGA, VISITING FELLOW, THE AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Noriega. Thank you very much, Mr. Chairman, Ranking 
Member, Members of the subcommittee. I appreciate the 
opportunity to testify on this subject today. I thank the 
committee, subcommittee for addressing this issue, which I 
think requires much more attention than it is getting today.
    Hezbollah, backed by Iran and Venezuela, is a determined 
and deadly enemy of the United States that has made substantial 
progress in the last 6 years to increase its activities in 
Latin America. This push is the result of a conscious offensive 
strategy to spread its influence, legitimize its cause, and 
advance its violent jihad and operational capabilities on our 
doorstep.
    Unless our Government and responsible partners in Latin 
America act soon, I believe there will be an attack on U.S. 
personnel, installations, or interests in the Americas, as soon 
as Hezbollah leaders make a calculation that they are capable 
of carrying out such an operation without implicating their 
Iranian masters in that operation.
    Of particular interest to this subcommittee, I am sure, are 
a series of published reports that Hezbollah operatives have 
provided weapons and explosives training to drug-trafficking 
organizations that operate across the U.S. border with Mexico. 
My conclusion is that U.S. authorities know more than they are 
willing to say publicly about this subject, and this Congress 
is right to insist on a thorough explanation of the threat and 
of our effective countermeasures.
    Our research has identified at least two networks 
associated with Hezbollah growing at an alarming rate in Latin 
America. One is operated by Hezbollah itself, aided by its 
collaborators, particularly from Venezuela. Another is managed 
by a cadre of notorious operatives on behalf of the Iranian 
Qods Force. These networks conduct fund-raising, money 
laundering, narcotics trafficking, proselytization, 
recruitment, and training in the Americas. We can identify more 
than 80 operatives in at least 12 countries throughout the 
region, with the greatest areas of concern being Brazil, 
Venezuela, and the Southern Cone.
    A key operative in the Hezbollah network in Latin America 
is a man named Ghazi Atef Salameh Nassereddine Abu Ali. His 
photograph is shown here with his brothers. He is a man who was 
born in Lebanon, became a Venezuelan citizen just 10 years ago, 
and is now Venezuela's No. 2 diplomat in Damascus, Syria. Along 
with these two brothers, Abdallah and Oday, Nassereddine 
manages a network that raises and launders money and recruits 
and trains operatives to expand Hezbollah's influence in 
Venezuela and throughout Latin America.
    The individual who oversees the parallel Hezbollah network 
on behalf of the Qods Force is Mohsen Rabbani, whose picture is 
shown here. He is a high-ranking Iranian, wanted by prosecutors 
in Argentina for his role in the terrorist bombings in Buenos 
Aires in 1992 and 1994. Rabbani was posted in Argentina at the 
time as the cultural attache of Iran in Buenos Aires. Although 
Rabbani is the object of an Interpol red notice, he travels 
frequently in the region. He was in Venezuela as recently as 
March 2011 and in Brazil last September.
    According to sources in Brazilian intelligence, who were 
cited by the investigative journalist Leonardo Cortino in the 
important Brazilian magazine VEJA, at least 20 operatives from 
Hezbollah, al-Qaeda and Islamic Jihad operate in Brazil as a 
hub for terrorist activity. Reportedly, Rabbani has recruited 
dozens of Brazilian followers to his cause.
    In addition, Rabbani taps a cadre of persons he has 
recruited in Argentina to spread Hezbollah's influence 
throughout Central and South America.
    Mr. Chairman, allow me to cite a few examples and show the 
potency of this threat to the U.S. homeland. At least one 
member of the terrorist network who was accused of plotting to 
detonate fuel tanks and pipelines at JFK's International 
Airport in 2007 met with the man, Mohsen Rabbani, in Iran and 
was subsequently arrested by U.S. authorities--I'm sorry, by 
Trinidadian authorities en route to Venezuela, where he planned 
to board a Conviasa flight to Tehran, a regularly scheduled 
flight from the Venezuelan airline Conviasa to Tehran.
    One of Rabbani's principal collaborators in the Americas is 
the Sunni radical imam in Brazil who, as far back as 1995, 
hosted al-Qaeda leader Osama bin Laden and 9/11 mastermind 
Khalid Sheik Mohammed.
    In August of last year, President Hugo Chavez of Venezuela 
hosted a secret summit in Caracas of some of the world's most 
notorious terrorist leaders right here in our hemisphere, 
including Hamas' Supreme Leader Khaled Meshal, Hezbollah's 
Chief of Operations, and the Secretary General of the 
Palestinian Islamic Jihad.
    In conclusion, recent public statements suggest that U.S. 
diplomats, at least, are unaware of the increasing operations 
and reach of Hezbollah in this hemisphere. By contrast, U.S. 
law enforcement, particularly the DEA, have made great efforts 
to assess and to confront the threat. But this requires a 
whole-of-government approach, including an interagency review 
of the problem, to understand, assess the transnational and 
multifaceted nature of this threat; to educate friendly 
governments in the region about what is happening; and to 
implement effective measures, unilaterally and with willing 
partners, to disrupt and dismantle these operations.
    Thank you, Mr. Chairman.
    [The statement of Mr. Noriega follows:]
                 Prepared Statement of Roger F. Noriega
                              July 7, 2011
    Mr. Chairman, Members of the subcommittee, I very much appreciate 
this opportunity to testify before you today. I would also like to 
thank you and the committee for your leadership on this very important 
issue that, quite frankly, does not get the attention it deserves among 
the many competing foreign threats and policy priorities.
    It is well known that Hezbollah acts as a proxy for Iran--
specifically, of the Qods Force of the Iranian Revolutionary Guard 
Corps. These determined and deadly enemies of the United States have 
made substantial progress in the last 6 years to expand their influence 
and operations in Latin America. Their expanding activities are the 
result of a conscious, offensive strategy to carry their fight to our 
doorstep, which receives indispensable support from the regime of 
Venezuelan leader Hugo Chavez.
    Our research--from open sources, subject-matter experts, and 
sensitive sources within various governments--has identified at least 
two parallel terrorist networks growing at an alarming rate in Latin 
America. One is operated by Hezbollah, aided by its collaborators, and 
another is managed by a cadre of notorious Qods operatives. These 
networks cooperate to carry out fundraising, money-laundering schemes, 
narcotics smuggling, proselytization, recruitment, and training. We can 
identify more than 80 operatives in at least 12 countries throughout 
the region (with the greatest areas of concern being Brazil, Venezuela, 
and the Southern Cone).
    Of particular interest to this subcommittee, no doubt, are the 
several published reports, citing U.S. law enforcement and intelligence 
sources, that Hezbollah operatives have provided weapons and explosives 
training to drug trafficking organizations that operate along the U.S. 
border with Mexico and have sought to radicalize Muslim populations in 
several Mexican cities. The U.S. and Mexican governments have declined 
to share information publicly on these cases. (Our inquiries to at 
least one Mexican official about a specific arrest of a suspected 
Hezbollah operative in Mexico in June 2010 were met with the response, 
``Don't ask about that.'') It is clear that this is a potential threat 
that has captured the attention of authorities on both sides of the 
border. This Congress and the American people have the right to know 
how our Government is working with Mexico to meet this challenge to our 
common security.
    Hezbollah has a very clear modus operandi that it is applying in 
the Americas. By infiltrating or establishing mosques or ``Islamic 
centers'' throughout the region, Hezbollah is spreading its influence, 
legitimizing its cause, and advancing its violent jihad on our 
doorstep. It also is raising funds through various criminal and 
commercial operations, recruiting converts from among disaffected youth 
and others, and developing its operational capabilities in our own 
Hemisphere.
    Unfortunately, the Hezbollah threat in the Americas is not new: It 
is implicated in the deadly terrorist bombings in Buenos Aires, 
Argentina, in 1992 (of the Israeli Embassy) and 1994 (of a Jewish 
Community Center). However, today, Hezbollah's presence in Latin 
America is growing significantly with the support of the Chavez regime 
in Venezuela. Chavez, who has a track record of supporting Colombian 
narcoterrorists, has cooperated with Iran to provide political support, 
financing, or arms to Hezbollah, Hamas, or Palestinian Islamic Jihad in 
this Hemisphere and elsewhere. For example, Venezuela's Margarita 
Island has eclipsed the infamous ``Tri-Border Area''--the region where 
Brazil, Argentina, and Paraguay come together in South America--as a 
principal safe haven and center of Hezbollah operations in the 
Americas.
    A key operative in the Hezbollah network in Latin America is Ghazi 
Atef Salameh Nassereddine Abu Ali, a man who was born in Lebanon, 
became a Venezuelan citizen about 10 years ago, and now is Venezuela's 
No. 2 diplomat in Syria. Along with at least two of his brothers, he 
manages a network that raises and launders money and recruits and 
trains operatives to expand Hezbollah's influence in Venezuela and 
throughout Latin America. Nassereddine was black-listed by the U.S. 
Department of the Treasury in June 2008 for his fundraising and 
logistical support on behalf of Hezbollah. However, testimony before 
the House Committee on Foreign Affairs last month by State Department 
officials suggests that they are unaware of the very important role he 
now is playing to expand that terrorist group's reach beyond Venezuela.
    Using his diplomatic status, Nassereddine has built and 
consolidated relationships with Hezbollah officials in the Middle East, 
first in Lebanon and now in Syria. Meanwhile, his brother Abdallah 
Nassereddine, maintains relationships in the broader Islamic community 
via a multi-national organization known as the Federation of Arab and 
American Associations. (FEARAB has affiliates throughout South America 
and the Caribbean with most regional meetings held in Sao Paulo or 
Buenos Aires.) All the while, their younger brother, Oday Nassereddine, 
has established a powerbase in Venezuela by setting up training 
operations on Margarita Island, and is now recruiting adherents via the 
Circulos Bolivarianos in Barquisimeto, 170 miles southwest of Caracas. 
(The Circulos Bolivarianos are ubiquitous neighborhood monitoring 
committees made up of the most radical followers of Hugo Chavez.)
    The individual who oversees the parallel Hezbollah network on 
behalf of the Qods Force is Mohsen Rabbani, a high-ranking Iranian 
wanted by prosecutors in Argentina for his role in the 1992 and 1994 
Buenos Aires attacks. At that time, Rabbani was credentialed as a 
cultural attache at the Iranian embassy in the Argentine capital. 
Today, he relies on a network of Argentine converts that he cultivated 
during that period to recruit operatives throughout the region who are 
selected for radicalization and terrorist training in Venezuela and in 
Iran (specifically, Qom).
    Although Rabbani is wanted by Argentina and is the object of an 
Interpol ``red notice,'' he travels periodically to the region. For 
example, Rabbani was in Venezuela in March 2011, and in Brazil last 
September, where he and his brother (who lives in Brazil) have 
recruited dozens of followers to their radical cause. According to 
sources in Brazilian intelligence, who were cited by an investigative 
article in the important Brazilian magazine VEJA, at least 20 
operatives from Hezbollah, al-Qaeda, and the Islamic Jihad are using 
Brazil as a hub for terrorist activity.
    Two of Rabbani's favored Argentinean disciples are now operating in 
Chile. Sheik Karim Abdul Paz, who studied under Rabbani in Qom, is the 
Imam of a cultural center in Santiago, and Sheik Suhail Assad is a 
Professor at the University of Santiago. Both have publicly stated that 
they are sympathetic to Hezbollah. Suhail travels frequently throughout 
Central and South America, meeting with local Muslim communities.
    As recently as 2 weeks ago, a U.S. State Department official told 
this Congress that Hezbollah activity in the Western Hemisphere was 
confined to ``fundraising''--as if that were comforting. The fact is, 
that assertion grossly understates the growing Hezbollah threat in our 
Hemisphere, as my foregoing testimony indicates.
    Please allow me to provide some additional anecdotes to illustrate 
my contention that Hezbollah is on the move in the Americas, and its 
activities represent a grave and growing threat to the U.S. homeland:
  <bullet> At least one member of the terrorist network plotting to 
        detonate fuel tanks and pipelines at New York's JFK 
        International Airport met with Mohsen Rabbani in Iran; he was 
        subsequently arrested en route to Venezuela where he planned to 
        board a flight to Teheran.
  <bullet> One of Rabbani's principal collaborators in the Americas is 
        the Sheik Khaled Razek Tak el-Din, a Sunni radical from the Sao 
        Paulo Guarulhos mosque, which is linked to members of the 
        Treasury Department-designated Tri-Border network that provides 
        significant financial and logistical support to Hezbollah in 
        Lebanon. As far back as 1995, Tak el-Din hosted al-Qaeda leader 
        Osama Bin Laden and 9/11 mastermind Khalid Sheik Mohammed.
  <bullet> Last spring, two Iranian Hezbollah operatives were 
        conducting terror training on Venezuela's Margarita Island for 
        persons brought there from other countries in the region. 
        Colombian authorities have reported to me that Hezbollah 
        operates in areas of their country where the narcoterrorist 
        group FARC (Fuerzas Armadas Revolucionarios de Colombia) has a 
        presence.
  <bullet> The cocaine kingpin Walid Makled, several of whose companies 
        did business with the Hezbollah operative and Venezuelan 
        diplomat Ghazi Nassereddine, confirmed in a televised interview 
        on April 3 that Hezbollah conducts fundraising and operates 
        cocaine labs in Venezuela with the protection of that 
        government.
  <bullet> On November 4, 2009, Israeli commandos intercepted a 
        shipment of grenades, Katyusha rockets, 500,000 rounds of 
        ammunition, and other Russian and Iranian arms aboard the cargo 
        vessel, Francop, which was carrying these weapons from the 
        Venezuelan port of Guanta to Syria, where the intended 
        recipient was Hezbollah.
  <bullet> Hugo Chavez hosted a terror summit of senior leaders of 
        Hamas (``supreme leader'' Khaled Meshal), Hezbollah (unnamed 
        ``chief of operations''), and Palestinian Islamic Jihad 
        (Secretary General Ramadan Abdullah Mohammad Shallah) in 
        Caracas on August 22, 2010. That extraordinary meeting was 
        organized at the suggestion of Iran, and the logistical 
        arrangements were made by Nassereddine. In addition to the 
        summit, operatives from other countries gathered in Caracas to 
        meet with these terrorist chieftains.
  <bullet> The Venezuelan airline, Conviasa, conducts regular flights 
        between Caracas and Damascus and Teheran. The Hezbollah 
        networks use these flights and others to ferry operatives, 
        recruits, and cargo in and out of the region.
    In summary, Mr. Chairman, due to the ``official'' support from some 
governments in Latin America (Venezuela, Bolivia, Ecuador, Nicaragua, 
and others), and the unwillingness of others to recognize the threat, 
we can expect to see the Hezbollah presence in Latin America become 
more active and deadly in the coming years. The apparent terminal 
illness of the Venezuelan dictator Hugo Chavez might reduce that 
country's risky support for Hezbollah; unfortunately, that terror 
network has metastasized in the Americas, and our research indicates 
that the most tempting target for Hezbollah in the region is Brazil, 
one of the world's 10 largest economies with an estimated population of 
1 million Muslims.
    As it stands today, I believe the Hezbollah/Iranian presence in 
Latin America constitutes a clear threat to the security of the U.S. 
homeland. They have the motivation, and they have been steadily 
increasing their capacity to act. In addition to operational terrorist 
activity, Hezbollah also is immersed in criminal activity throughout 
the region--from trafficking in weapons, drugs, and persons--all of 
which threaten our security.
    The more broad implication for U.S. homeland security is that 
Hezbollah--via Iran and Venezuela--has engaged the United States in an 
offensive strategy of asymmetric warfare on our doorstep. It is aiming 
to win the mental battle of attrition and the moral battle of 
legitimacy--particularly with the youth in Latin America. Unless our 
Government recognizes and responds to their efforts, our ability to 
protect our interests and our homeland will be gradually and 
dangerously diminished.
    U.S. and other government authorities have identified and 
sanctioned some of the leaders of these networks. However, recent 
public statements suggest that U.S. diplomats are unaware of the 
increasing operations and reach of the Hezbollah network. By contrast, 
U.S. law enforcement agencies--led by the Drug Enforcement 
Administration--have made great efforts to assess and confront this 
threat by building cases against foreign officials and sanctioning 
commercial entities that provide support to this criminal terror 
organization. However, this dangerous network requires a whole-of-
government strategy, beginning with an inter-agency review to 
understand and assess the transnational, multi-faceted nature of the 
problem, to educate friendly governments on what is happening, and to 
implement effective measures unilaterally and with willing partners to 
disrupt and dismantle their operations.
    If our Government and responsible partners in Latin America fail to 
act, I believe there will be an attack on U.S. personnel, 
installations, or interests in the Americas as soon as Hezbollah 
operatives believe that they are capable of such an operation without 
implicating their Iranian sponsors in the crime.
    Thank you, Mr. Chairman.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Meehan. Thank you, Mr. Noriega, Ambassador Noriega.
    Our next witness will be Mr. Douglas Farah, a senior fellow 
at the International Assessment and Strategy Center who focuses 
on financial investigations and transparency. Mr. Farah 
consults for United States and European government agencies, 
specializing in research writing and training on transnational 
organized crime, terror-financed armed groups, and their 
effects on states, with particular focus on the Western 
Hemisphere and Africa. Bringing a wealth of first-hand 
experience through his 30-year career as an investigative 
journalist, he has provided numerous expert testimonies to 
Congressional committees.
    A graduate with honors from the University of Kansas, Mr. 
Farah's most recent scholarly work is entitled Terrorist-
Criminal Pipelines and Criminalized States: Emerging Alliances. 
He has authored two books: One, Blood from Stones: The Secret 
Financial Network of Terror; and Merchant of Death: Viktor Bout 
and the New World Order.
    Mr. Farah, you are now recognized to summarize your 
testimony.

 STATEMENT OF DOUGLAS FARAH, SENIOR FELLOW, THE INTERNATIONAL 
                 ASSESSMENT AND STRATEGY CENTER

    Mr. Farah. Mr. Chairman, thank you very much. Members of 
the committee, I agree with Ambassador Noriega. This is a very 
important subject to which we pay insufficient attention to.
    In order to understand the threat Hezbollah poses, it is 
important to understand the regional context in which the 
group's presence is growing. Its chief sponsors, as has been 
noted, Iran and Syria, are designated state sponsors of 
terrorism, and they have spent the last decade building ties 
into criminalized governments in Latin America that also 
support violent terrorist groups.
    There is some concern about Venezuela providing the 
technology for the increasingly sophisticated narco tunnels now 
being found along the U.S.-Mexican border that strongly 
resemble the types used by Hezbollah in Lebanon. Retired law 
enforcement officials have publicly discussed the appearance in 
recent years of arrested gang members entering the United 
States with Farsi tattoos and other items that are possible 
indicators of Iran's influence in that field.
    As a senior DEA official recently noted, cocaine proceeds 
entering the coffers of Islamic radical groups such as 
Hezbollah can lead to an ``unlimited source of cheap and easy 
revenue to carry out potential terrorist attacks.''
    A joint DHS and State Department symposium last year 
concluded that the confluence of illicit networks and 
corruption in an enabling environment can facilitate not only 
the movement of drugs, arms, stolen, or pirated goods and 
trafficked persons, but also smuggling of terrorists, weapons 
of mass destruction, WMD materials, and other dangerous 
weapons. This trend is particularly powerful when taken in 
concert with the increasingly blurred lines between certain 
terror groups and criminal activities.
    I think what you are seeing in Latin America is the 
creation of this enabling environment that is discussed in this 
report and the distinct blurring or the very visible blurring 
of lines between terrorism and criminal activities in the 
group. Hezbollah's presence in this enabling environment has 
grown in scope and sophistication over the past years as Iran 
has successfully built close alliances with several governments 
in Latin America; not just the government of Venezuela, but the 
governments of Nicaragua, Bolivia, and Ecuador as well, the 
self-described ``Bolivarian Alliance.'' These alliances afford 
Iran and its proxy elements state control and effective 
immunity for its covert activities.
    Hezbollah's growing presence is a significant part of a 
larger and more dangerous pattern of the criminalization of 
these Bolivarian states closely allied with Iran. These 
countries, in turn, support another designated terrorist 
organization that produces an estimated 70 percent of the 
world's cocaine and 90 percent of the cocaine consumed in the 
United States, the Revolutionary Armed Forces of Colombia, or 
the FARC. The relationship between these alliances with 
Venezuela, Ecuador, Bolivia, and Nicaragua with Iran seems 
paradoxical. It is between groups espousing seemingly 
irreconcilable world views, the theocratic Shiite Muslim 
fundamentalism and socialism for the 21st Century. What binds 
it together is the common aim of asymmetrical military defeat 
of the United States, according to their own writings.
    The criminalization of multiple states in our hemisphere 
acting in concert is a threat, but the seriousness of the 
threat grows enormously when the central element that the 
governments and their nonstate proxies share is a hatred for 
the United States and a publicly stated desire to inflict 
significant damage on the homeland. These groups together have 
access to hundreds of millions of dollars in illicit revenues 
annually.
    The roots of this unlikely ideological combination can be 
found, as I discuss in my written testimony, in the Iranian 
Revolution of 1979 and the writings of Ilich Sanchez Ramirez, 
better known as Carlos the Jackal, a Venezuelan citizen who, 
until his arrest in 1994, was the world's most-wanted 
terrorist. In his 2003 book, Revolutionary Islam, written from 
prison where he is serving a life sentence, the Jackal praises 
Osama bin Laden and 9/11 as part of a justified armed struggle 
of Islam against the West. ``From now on, terrorism is going to 
be more or less a daily part of the landscape of your rotting 
democracies,'' he wrote.
    Sanchez Ramirez and Chavez maintain a warm and public 
friendship, and the repeated public praise of Chavez for the 
Jackal can be seen as a crucial element of Bolivarian ideology.
    As I further discuss in my written testimony, Chavez 
adopted as official Venezuelan military doctrine this book, 
which is Peripheral Warfare and Revolutionary Islam: Origins, 
Rules and Ethics of Asymmetrical Warfare, by the Spanish 
politician and ideologue Jorge Verstrynge. The tract is a 
continuation of the exploration of Sanchez Ramirez's thought, 
incorporating the explicit endorsement of the use of weapons of 
mass destruction to destroy the United States. Copies of this 
book have recently been found in FARC training camps in 
Colombia for the first time, showing the cross-pollination of 
this ideology from Venezuela into its proxies operating in 
Colombia and elsewhere.
    It is important to note that the relationship Hezbollah has 
developed with criminal and terrorist groups in Latin America 
has escalated from one of mutual accommodation and benefit in 
the spheres of money laundering, contraband, and financing to 
more direct and deadly forms of collaboration. Currently there 
are numerous cases being prosecuted in the United States that 
shed new light on the direct cocaine-for-weapons deals between 
Hezbollah and the FARC.
    One case that illustrates the breadth of this emerging 
alliance is Operation Titan, executed by Colombia and U.S. 
officials in 2008 and still on-going, although much of it is 
now classified. Colombia and U.S. officials, after a 2-year 
investigation, dismantled a drug-trafficking organization that 
stretched from Colombia to Panama, Mexico, the United States, 
Europe, and West Africa. Most of the drugs originated with the 
FARC in Colombia, and some of the proceeds were traced to 
Lebanese expatriate networks funding Hezbollah directly. Other 
cases are cited in my testimony.
    As cocaine trafficking shifts significantly to transit----
    Mr. Meehan. Mr. Farah, could you do your best to try to----
    Mr. Farah. Yes.
    Hezbollah's presence in Latin America is growing, and the 
organization remains the premier terrorist organization in the 
world. The core shared belief of these varied actors is that 
the United States is the primary enemy that needs to be 
destroyed, that WMD is a legitimate option to achieve that end, 
that the Iranian Revolution offers a model for defeating the 
United States, and the ability to wage sophisticated 
asymmetrical warfare is the key to their future. Because of 
that, I believe it is a real and growing threat in the 
hemisphere.
    Thank you.
    [The statement of Mr. Farah follows:]
                  Prepared Statement of Douglas Farah
                              July 7, 2011
    Chairman Meehan, Ranking Member Speier, and Members of the 
subcommittee, thank you for the opportunity to testify here today on a 
significant and growing threat to U.S. security in the Western 
Hemisphere: The presence of Hezbollah and its primary sponsor, the 
government of Iran, with its full arsenal of intelligence and 
specialized military units of the Islamic Revolutionary Guard Corps 
(IRGC) and the Qods Force. The threat is not limited to the region and 
the homeland alone, but more broadly its aims include an ability to 
hold the United States at risk in terms of exercising options in other 
theatres, most specifically with respect to Iran, Syria, and the Middle 
East, including Israel.
    In order to understand the threat Hezbollah poses it is important 
to understand the regional context in which the group's presence is 
growing. Its chief state sponsors--Iran and Syria who also are 
designated state sponsors of terrorism--are more than a decade into 
developing a range of close ties to criminalizing states in Latin 
America which also support violent criminal and terrorist groups.
    In addition to its growing presence in Latin America, Hezbollah has 
a long-standing smuggling network in West Africa, traditionally used 
for moving contraband diamonds and other commodities and now involved 
in the trafficking of cocaine from Latin America to Europe. It also has 
an established presence in the United States and Canada, as the 
committee, intelligence, and law enforcement communities know.
    There is growing concern that Hezbollah is providing technology for 
the increasingly sophisticated narco tunnels now being found along the 
U.S.-Mexican border, which strongly resemble the types used by 
Hezbollah in Lebanon. Numerous former intelligence and law enforcement 
officials have publicly discussed the appearance in recent years of 
arrested gang members entering the United States with Farsi tattoos and 
other goods that could indicate a Hezbollah influence.\1\
---------------------------------------------------------------------------
    \1\ Rep. Sue Myrick, ``Myrick calls for Taskforce to Investigate 
Presence of Hezbollah on the U.S. Southern Border, June 23, 2010, 
http://myrick.house.gov/index.cfm?sectionid=22- &itemid=558.
---------------------------------------------------------------------------
    As a senior DEA official recently noted, ``There are numerous 
reports of cocaine proceeds entering the coffers of Islamic Radical 
Groups (IRG) such as Hezbollah and Hamas in Europe and the Middle East. 
The danger of DTO's and IRG's profiting from the lucrative cocaine 
trade can lead to an unlimited source of cheap and easy revenue to 
carry out potential terrorist acts.''\2\
---------------------------------------------------------------------------
    \2\ Statement of Anthony P. Placido, deputy administrator for 
intelligence, Drug Enforcement Administration, Committee on Oversight 
and Government Reform Subcommittee on National Security and Foreign 
Affairs, March 3, 2010.
---------------------------------------------------------------------------
    The threat therefore is neither remote, discontinuous nor 
contained, nor is it as well understood as it should be. This--and the 
overall criminal/terrorist/compromised state challenge of which it is a 
part--requires more integrated analytical, intelligence, diplomatic, 
and security approaches driven by a strategic assessment of the threat.
    As a joint DHS and State Department symposium concluded:

``The confluence of illicit networks and corruption in an enabling 
environment could facilitate not only the movement of drugs, arms, 
stolen or pirated goods, and trafficked persons, but also smuggling of 
terrorists, weapons of mass destruction (WMDs), WMD materials, and 
other dangerous weapons and technologies that threaten global security. 
This trend is particularly powerful when taken in concert with the 
increasingly blurred line between certain terror groups and the 
criminal activities that fund them. For instance, organizations such as 
Hezbollah, Al Qaeda, the Revolutionary Armed Forces of Colombia (FARC), 
the Taliban, the Kurdistan Worker's Party (PKK), have been known to 
engage in criminal enterprises for profit or to advance a terror 
agenda.''\3\
---------------------------------------------------------------------------
    \3\ ``Chair's Report: Transpacific Symposium on Dismantling 
Transnational Illicit Networks,'' Department of State Bureau of 
International Narcotics and Law Enforcement Affairs, and Department of 
Homeland Security U.S. Immigration and Customs Enforcement, February 
2010, p. 3.

    A strategy considering all aspects as part of a whole, rather than 
separated into lanes such as terrorism, narcotics, WMD, threat finance, 
human and contraband smuggling, energy, state corruption, and others, 
is necessary.
    Over the past 2 years or so, ranking U.S. military and law 
enforcement leadership have begun to articulate this complex threat, 
and the need for a more comprehensive approach, implicitly one 
adequately resourced and comprising all elements of U.S. power--
diplomatic, informational, military, and economic. The failure to so 
engage will negatively affect the United States in each of those 
dimensions. It will undercut a mainstay pillar of our security, reverse 
the democratic and economic gains of the 1980s and 1990s Latin America 
democratization which we did so much to enable and significant cost, 
and it ultimately will cost U.S. lives, including possibly terrorist 
attacks.
         understanding the actors, relationships, and pipelines
    As my submitted CV indicates, I was born of U.S. missionary parents 
in Latin America, and have worked there as an investigative journalist, 
as a subject matter expert, and an advisor and trainer on democratic 
governance and anti-corruption issues for some 30 years. I bring broad 
cultural, historical, and operational understanding and strong networks 
across the political spectrum, from guerilla leaders to Ministers of 
Justice. With this background, I must state that my fieldwork in many 
different parts of Latin America over the past 3 years clearly 
established that Hezbollah has developed a significant presence in the 
region, augmented by thousands of sympathizers who contribute monetary 
and non-monetary resources to the organization.
    This presence has grown in scope and sophistication over the past 
years as Iran's Mahmoud Ahmadinejad has successfully built close 
alliances with several governments in Latin America, led by Hugo Chavez 
in Venezuela. These alliances afford Iran and its proxy elements state 
cover and effective immunity for its covert activities. This includes: 
Unfettered access to global banking facilities, ports, and airports; 
mining of precursor elements for WMD and advanced weapons systems 
fabrication; and, a regional base for infiltration and contingency 
operations aimed at undermining the United States and its interests, 
while also abetting corruption and the notable build-up in conventional 
arms manufacturing.
    These corrosive activities, taken together, are accelerating the 
weakening of states--hollowing-out of many of the first-generation 
democracies and their constitutional and civil society processes, and 
setting a predicate for a reassertion of authoritarian rule and ruin in 
these states and their neighbors. These states' survival and growth are 
critical to long-term regional and U.S. security.
    Concurrently we see the further empowerment, training, and 
technological support of the oppressive security apparatuses in the 
increasingly undemocratic Bolivarian states provided by the Iran-
Hezbollah-ICRG/Qods forces combine. Other outside powers, notably China 
and Russia further compound these problems (as might, in the future, 
the still-nascent presence of radical Sunni groups related to the 
Muslim Brotherhood). However Iran, Hezbollah, and the ICRG/Qods forces 
are the sharpest edge of this sword at present, and the one most openly 
aimed at the United States, and least tractable to diplomacy.
    All of this comes at the expense of U.S. influence, security, and 
trade--including energy security and hence economic and infrastructure 
security (Venezuela is the 4th-largest supplier of U.S. petroleum 
imports, just behind Mexico; indeed Latin America is our 2nd-largest 
source of supply overall, only slightly behind the Middle East). While 
this hearing focuses on Hezbollah, the non-state, armed branch of 
radical Shi'ite Islamists, one cannot ignore the direct relationship of 
this organization to state sponsors. As the DIA noted last year:

``The Qods Force stations operatives in foreign embassies, charities, 
and religious/cultural institutions to foster relationships with 
people, often building on existing socio-economic ties with the well 
established Shia diaspora. At the same time, it engages in paramilitary 
operations to support extremists and destabilize unfriendly regimes. 
The IRGC and Qods Force are behind some of the deadliest terrorist 
attacks of the past three decades, including the 1983 and 1984 bombings 
of the U.S. Embassy and annex in Beirut, the 1983 bombing of the Marine 
barracks in Beirut, the 1994 attack on the AMIA Jewish Community Center 
in Buenos Aires, the 1996 Khobar Towers bombing in Saudi Arabia, and 
many of the insurgent attacks on Coalition and Iraqi Security Forces in 
Iraq since 2003. Generally, it directs and supports groups actually 
executing the attacks, thereby maintaining plausible deniability within 
the international community.
``Support for these extremists takes the form of providing arms, 
funding, and paramilitary training. In this, Qods Force is not 
constrained by ideology; many of the groups it supports do not share, 
and sometimes openly oppose, Iranian revolutionary principles, but Iran 
supports them because of common interests or enemies.
``The Qods Force maintains operational capabilities around the world. 
It is well established in the Middle East and North Africa, and recent 
years have witnessed an increased presence in Latin America, 
particularly in Venezuela [author emphasis]. As U.S. involvement in 
global conflicts deepens, contact with the Qods Force, directly or 
through extremist groups it supports, will be more frequent and 
consequential.''\4\
---------------------------------------------------------------------------
    \4\ Lt. Gen. Ronald L. Burgess, Jr., Director, Defense Intelligence 
Agency, ``Iran's Military Power,'' Statement before the United States 
Senate Committee on Armed Services, April 14, 2010.

    It is within this context of the merging of state and non-state 
armed actors that I would like to address the issue of Hezbollah in 
Latin America and the threat the organization poses to the U.S. 
Homeland. Hezbollah's growing presence is a significant part of a 
larger and more dangerous pattern of the criminalization of the self-
described ``Bolivarian'' states in Latin America closely allied with 
Iran. These countries, in turn, support another designated terrorist 
organization that produces an estimated 70 percent of the world's 
cocaine and up to 90 percent of cocaine in the United States--The 
Revolutionary Armed Forces of Colombia (Fuerzas Armadas Revolucionarias 
de Colombia--FARC).\5\
---------------------------------------------------------------------------
    \5\ ``Top-ranking member of Colombian FARC Narco-Terrorist 
Organization Convicted on U.S. Drug Charges, Drug Enforcement 
Administration, Department of Justice, February 20, 2007. The DEA 
describes the FARC as a violent narco-terrorist guerrilla group 
operating in Colombia, controls large portions of Colombia and finances 
its violent conflict with the Colombian government by engaging in drug 
trafficking, augmented by other means including kidnapping and 
extortion. Drug trafficking is the lifeblood of the FARC because it 
enables the FARC to acquire weapons, ammunition, and equipment 
necessary to carry on its violent attacks. DEA estimates that the FARC 
controls approximately 70 percent of the Colombian cocaine trade, and 
approximately 80 to 90 percent of the cocaine shipped to the United 
States comes from Colombia. The FARC produces and distributes thousands 
of kilograms per month for export to the United States and other 
countries.
---------------------------------------------------------------------------
    The relationship between these ``Bolivarian states'' (Venezuela, 
Ecuador, Bolivia, and Nicaragua) and Iran is crucial to understanding 
the threat that Hezbollah in Latin America poses. This relationship, 
among groups espousing and actively pursuing seemingly irreconcilable 
world views--theocratic Shiite Muslim fundamentalism and Socialism for 
the 21st Century--is bound by a common aim of the asymmetric defeat of 
the United States, and a shared view in favor of an authoritarian state 
that tolerates little dissent and encroaches on all aspects of a 
citizen's life. This constitutes a core element of the threat.
    Hezbollah's influence in Latin America extends to the nature of 
aggression and diplomacy employed by Chavez and his Bolivarian 
comrades. Iran and Hezbollah are among the foremost practitioners today 
of the franchising model of a state sponsor allocating certain elements 
of statecraft to non-state armed actors involved in transnational 
organized crime and terrorist activities.
    As one study noted,

``The Quds are also believed to play a continuing role in training, 
arming, and funding Hezbollah in Lebanon and to have begun to support 
Shi'ite militia and Taliban activities in Afghanistan . . . The Quds 
has offices or `sections' in many Iranian embassies, which are closed 
to most embassy staff. It is not clear whether these are integrated 
with Iranian intelligence operations or if the ambassador in each 
embassy has control of, or detailed knowledge of, operations by the 
Quds staff. However, there are indications that most operations are 
coordinated between the IRGC and offices within the Iranian Foreign 
Ministry and MOIS.''\6\
---------------------------------------------------------------------------
    \6\ Anthony H. Cordesman, ``Iran's Revolutionary Guards, the al 
Quds Force, and other Intelligence and Paramilitary Forces (Working 
Draft),'' Center for Strategic and International Studies, August 16, 
2007.
---------------------------------------------------------------------------
    Recent headlines reaffirm that such Iranian proxy arming is a 
growing source of lethal attacks against the United States in both Iraq 
and Afghanistan presently with the new weapons shipments leading 
directly to the deaths of American troops.\7\
---------------------------------------------------------------------------
    \7\ See for example: Jay Solomon, ``Iran Funnels New Weapons to 
Iraq and Afghanistan,'' Wall Street Journal, July 2, 2011, http://
online.wsj.com/article/SB100014240527023037634045- 
76420080640167182.html?KEYWORDS=iran+weapons.
---------------------------------------------------------------------------
    The nature of the threat to the United States, then, is not merely 
the drugs in the criminal pipelines and multiple transnational criminal 
activities that directly affect us every day. It is the establishment 
of political and financial influence and military presence by 
Hezbollah, a terrorist organization that enjoys the state sponsorship 
of Iran and, to a lesser degree, Syria, in concert with states that are 
hospitable to its movements and that are replicating its model, 
particularly south of our border.
    A central common element between Iran and its Bolivarian allies is 
the willingness to use non-state allies participating in criminal and 
terrorist activities as instruments of statecraft. As the DIA noted, 
the Qods Force supports proxy forces while retaining plausible 
deniability, and the primary force is Hezbollah. Venezuela, in turn, 
also hosts not only the FARC, but the ETA Basque separatist terrorist 
organization, the Bolivarian Continental Movement (Movimiento 
Continental Bolivariano--MCB).
    The MCB is a FARC-founded political umbrella group made up of 
remnants of Latin America's violent Marxist movements and its allies in 
Europe, the United States, and Latin America. The core mission of the 
group is to legitimize the FARC's internal and international image as a 
revolutionary army driven by ideology rather than a criminal 
organization fuelled by the drug trade. It also is a staunch defender 
of Chavez and his Bolivarian allies and a favorite forum for calling 
for armed action against the United States and for armed revolution 
against the democratically elected government of Colombia.
    One thing both Hezbollah and the FARC have is common is a 
demonstrated willingness to work with outside groups that do not share 
their same ideology or theology, but who share a common enemy.
    An important element in the criminalized relationships among all 
these groups are the ``pipelines'' or series of overlapping pipelines 
that these state and non-state actors need to move products, money, 
weapons, personnel, and goods virtually anywhere and at anytime, 
without detection and for enormous profits.\8\
---------------------------------------------------------------------------
    \8\ For a fuller discussion of the criminalization of these states 
and the role of non-state armed actors see: Douglas Farah, ``Terrorist-
Criminal Pipelines and Criminalized States: Emerging Threats,'' PRISM, 
National Defense University, PRISM 2, no. 3, pp 15-32.
---------------------------------------------------------------------------
    These pipelines are perhaps best understood as a series of 
recombinant chains whose links can couple and de-couple as necessary to 
meet the best interests of the networks involved. In the current 
context I am discussing state and non-state criminal/terrorist 
organizations who are able to move goods from Iran across the northern 
tier of South America, through Central America and Mexico and penetrate 
our borders with impunity.
    The criminalization of multiple states in our hemisphere, acting in 
concert, is a threat across many obvious and less obvious fronts. But 
the seriousness of the threat grows enormously when the central element 
these governments and their armed non-state proxies Hezbollah and the 
FARC share is a hatred for the United States and a publicly stated 
desire to inflict significant damage on the homeland. This is the 
reality we face. These groups together, as have access to hundreds of 
millions of dollars in illicit revenues annually, and billions of 
dollars more in state revenues that are allocated without transparency 
or internal supervision and accountability in respect of their 
nominally democratic host polities.
    As I will describe in detail, they share a doctrine of asymmetrical 
warfare against the United States that embraces the use of weapons of 
mass destruction, massive civilian casualties as acceptable collateral 
damage and the underlying belief that the acquisition of nuclear 
weapons to destroy the United States is a moral or religious 
imperative. This is not a statement of capacity, but a clear statement 
of intention.
    The first does not necessarily imply the ability to accomplish the 
latter, but it is an indication that these intentions need to be taken 
seriously, particularly given the level of resources available to them. 
Hezbollah, viewed by many in our intelligence community as the most 
effective, well-structured, and militarily proficient terrorist group 
in existence, brings a host of skills and abilities to bear in this 
regard. While these capabilities had been deployed in our hemisphere 
before with lethal effect (the 1994 AMIA bombing), they have not been 
previously deployed under the protection of a network of friendly 
governments, with access to diplomatic status and immunity and 
operational freedom.
    Last month a senior Venezuelan official publicly endorsed the 
Iranian position that the United States ``arms international terrorists 
and finances their activities.'' He added that ``discrimination and 
humiliation of nations is the primary cause of terrorism . . . the type 
of terrorism implemented by imperial powers attacks the sovereignty of 
nations and the laws that regulate armed conflicts.''\9\
---------------------------------------------------------------------------
    \9\ Frank Lopez Ballesteros, ``Venezuela e Iran unen su vision 
sobre terrorismo,'' El Universal, June 27, 2011, accessed at: http://
internacional.eluniversal.com/2011/06/27/venezuela-e-iran-unen-su-
vision-sobre-terrorismo.shtml.
---------------------------------------------------------------------------
    One need only look at how rapidly Iran has increased its 
diplomatic, economic, and intelligence presence in Latin America to see 
the priority it places on this emerging axis, given that it is an area 
where it has virtually no trade, no historic or cultural ties and no 
obvious strategic interests. In Bolivia recently the Iranian embassy 
reportedly asked for more than two dozen spaces for in the 
international school for children of their newly-arrived diplomats 
there. This is an indication of how rapidly the diplomatic mission is 
expanding despite having very few overt operations under way.
    The gains--in financial institutions, bilateral trade agreements, 
state-to-state shipping by land and sea that undergo no outside review, 
security forces and intelligence training, and state visits for Latin 
America (eight state visits between Chavez and Ahmadinejad alone since 
2006)--are almost entirely within the Bolivarian orbit (although there 
are signs of involvement elsewhere in both Central and Latin America, 
particularly efforts with mixed results to establish broad new ties 
with Brazil).
    What is of particular concern is that many of the agreements 
signed, such as the agreement to create a dedicated shipping line 
between Iran and Ecuador, visa-free flights to and from Caracas, 
Tehran, and Damascus, or the announced intention of the internationally 
sanctioned Economic Development Bank of Iran (EDBI) to deposit $120 
million dollars in the Central Bank of Ecuador, follow no normal 
economic rationale.\10\
---------------------------------------------------------------------------
    \10\ For a more complete look at Iran's presence in Latin America, 
see: Douglas Farah, ``Iran in Latin America: An Overview,'' Iran in 
Latin America: Threat or Axis of Annoyance, Woodrow Wilson 
International Center for Scholars, Cynthia J. Arnson et al, editors, 
June 2009, accessed January 21, 2011, at: http://www.douglasfarah.com/
pdfs/20090620_DFIraninLatAm- June2009-1.pdf For a look at the anomalies 
in the economic relations and banking relations, see Douglas Farah and 
Glenn Simpson, ``Ecuador at Risk: Drug, Thugs, Guerrillas and the 
`Citizens' Revolution,' '' International Assessment and Strategy 
Center, January 2010. The EDBI was sanctioned by the U.S. Treasury 
Department's Office of Foreign Assets Control for violating sanctions 
in regards to nuclear proliferation activities and aiding the IRGC.
---------------------------------------------------------------------------
    The OFAC designation of the Iranian bank states that:

``EDBI provides financial services to multiple MODAFL-subordinate 
entities that permit these entities to advance Iran's WMD programs. 
Furthermore, the EDBI has facilitated the on-going procurement 
activities of various front companies associated with MODAFL-
subordinate entities. Since the United States and United Nations 
designated Bank Sepah in early 2007, the EDBI has served as one of the 
leading intermediaries handling Bank Sepah's financing, including WMD-
related payments. In addition to handling business for Bank Sepah, the 
EDBI has facilitated financing for other proliferation-related entities 
sanctioned under U.S. and U.N. authorities.''\11\
---------------------------------------------------------------------------
    \11\ United States Department of Treasury, ``Export Development 
Bank of Iran Designated as a Proliferator,'' Press office of the Office 
of Foreign Assets Control, October 22, 2008. OFAC also designated a 
sister bank of EDBI operating in Venezuela as the Banco Internacional 
de Desarrollo (BID). In the MOU between Ecuador's central bank and 
EDBI, the EDBI offers to open a branch office of BID in Ecuador as 
well.

    The Bolivarian states have jointly declared their intention to help 
Iran break international sanctions, holding a joint press conference in 
Tehran to announce their determination to ``continue and expand their 
economic ties to Iran'' with confidence that ``Iran can give a crushing 
response to the threats and sanctions imposed by the West and 
imperialism.''\12\--by which they primarily mean the United States.
---------------------------------------------------------------------------
    \12\ ``Venezuela/Iran Alba Resolved to Continue Economic Ties with 
Iran,'' Financial Times Information Service, July 15, 2010.
---------------------------------------------------------------------------
    The multiple mining activities of radioactive elements, the 
significant investment in financial institutions, the recruitment and 
training of personnel from across the region by both Venezuela and 
Iran, and the constant high-level contact among the Bolivarian leaders 
and Iran all indicate a desire on the part of both parties (Iran and 
the Bolivarian states) to form a mutually beneficial and self-
reinforcing alliance.
    As noted above, of particular concern are the credible reports of 
on-going and extensive Iranian training and equipping of the 
intelligence services of the Boliviarian states, particularly 
Venezuela, Bolivia, and Ecuador. This includes both equipment, 
primarily for communications intercepts, and training trips of 
Bolivarian state officials and military-age youth cadres to Iran.
    It is also notable that in Bolivia and Ecuador, knowledgeable 
sources reported a significant increase in the Iranian military 
attaches being assigned to the region. This is unusual as the countries 
have traditionally have had little military interaction, and an 
indication of the increasing military-to-military ties that are 
developing. It is also worth noting that Hezbollah's entre into 
countries is often through the offices of the military attaches under 
diplomatic cover, who often operate as a separate entity within the 
embassies.
                    the changing nature of the ties
    Before going into the origins of this seemingly paradoxical 
alliance, it is important to note that the relationships Hezbollah has 
developed with criminal and terrorist groups in Latin America has 
escalated from one of mutual accommodation and benefit in the spheres 
of money laundering, contraband, and financing to a more direct and 
deadly forms of collaboration.
    There has been significant and well documented reporting on 
Hezbollah's financial ties to the contraband center of the Tri-Border 
region of Paraguay, Argentina, and Brazil, the contributions of the 
Lebanese diaspora communities on Isla Margarita and elsewhere, and the 
significant profits Hezbollah has derived for some time by taxing a 
range of illicit activities among the Lebanese diaspora communities.
    This type of activity, in many ways, was little different from that 
of many other transnational criminal networks, and was largely 
financial. However, the 1994 Iranian government-sponsored bombing of 
the AMIA building in Buenos Aires, Argentina, using Hezbollah 
operatives in the Tri-Border region, is a powerful reminder that these 
groups can and do operate militarily in Latin America.
    There is now-growing evidence of the merging of the Bolivarian 
Revolution's criminal-terrorist pipeline activities and those of the 
criminal-terrorist pipeline of radical Islamist groups (Hezbollah in 
particular) supported by the Iranian regime, This presages a series of 
new security challenges for the United States and its allies in Latin 
America.
    Currently there are cases being prosecuted in the United States 
that shed new light on direct cocaine-for-weapons deals between 
Hezbollah operatives and the FARC.
    One case that illustrates the breadth of the emerging alliances 
between criminal and terrorist groups is Operation Titan, executed by 
Colombian and U.S. officials in 2008 and still on-going. Colombian and 
U.S. officials, after a 2-year investigation, dismantled a drug 
trafficking organization that stretched from Colombia to Panama, 
Mexico, the United States, Europe, and the Middle East. Most of the 
drugs originated with the FARC in Colombia, and some of the proceeds 
were traced through a Lebanese expatriate network, to the funding 
Hezbollah.\13\
---------------------------------------------------------------------------
    \13\ While much of Operation Titan remains classified, there has 
been significant open source reporting, in part because the Colombian 
government announced the most important arrests. See: Chris Kraul and 
Sebastian Rotella, ``Colombian Cocaine Ring Linked to Hezbollah,'' Los 
Angeles Times, Oct. 22, 2008; and ``Por Lavar Activos de Narcos y 
Paramilitares, Capturados Integrantes de Organizacion Internacional,'' 
Fiscalia General de la Republica (Colombia), Oct. 21, 2008.
---------------------------------------------------------------------------
    Colombian and U.S. officials allege that one of the key money 
launderers in the structure, Chekry Harb, AKA ``Taliban'', acted as the 
central go-between among Latin American drug trafficking organizations 
and Middle Eastern radical groups, primarily Hezbollah. Among the 
groups participating together in Harb's operation in Colombia were 
members of the Northern Valley Cartel, right-wing paramilitary groups 
and the FARC, demonstrating the ecumenical adaptive nature of 
Hezbollah's criminal associations and of the ``recombinant networks'' 
system.
    Other recent cases include:
  <bullet> In 2008, OFAC-designated senior Venezuelan diplomats for 
        facilitating the funding of Hezbollah.
    One of those designated, Ghazi Nasr al Din, served as the charge 
        d'affaires of the Venezuelan embassy in Damascus, and then 
        served in the Venezuelan embassy in London. According to the 
        OFAC statement in late January 2008, al Din facilitated the 
        travel of two Hezbollah representatives of the Lebanese 
        parliament to solicit donations and announce the opening of a 
        Hezbollah-sponsored community center and office in Venezuela.
    The second individual, Fawzi Kan'an, is described as a Venezuela-
        based Hezbollah supporter and a ``significant provider of 
        financial support to Hezbollah.'' He met with senior Hezbollah 
        officials in Lebanon to discuss operational issues, including 
        possible kidnappings and terrorist attacks.\14\
---------------------------------------------------------------------------
    \14\ ``Treasury Targets Hizbullah in Venezuela,'' United States 
Department of Treasury Press Center, June 18, 2008, http://
www.treasury.gov/press-center/press-releases/Pages/hp1036.aspx.
---------------------------------------------------------------------------
  <bullet> In April 2009 police on the island of Curacao arrested 17 
        people for alleged involvement in cocaine trafficking with some 
        of the proceeds then funneled through Middle Eastern banks to 
        Hezbollah.\15\
---------------------------------------------------------------------------
    \15\ Orlando Cuales, ``17 arrested in Curacao on suspicion of drug 
trafficking links with Hezbollah,'' Associated Press, April 29, 2009.
---------------------------------------------------------------------------
  <bullet> A July 6, 2009 indictment of Jamal Youssef in the U.S. 
        Southern District of New York alleges that the defendant, a 
        former Syrian military officer arrested in Honduras, sought to 
        sell weapons to the FARC--weapons he claimed came from 
        Hezbollah, and were going to be provided by a relative in 
        Mexico.\16\
---------------------------------------------------------------------------
    \16\ United States District Court, Southern District of New York, 
The United States of America v Jamal Yousef, Indictment, July 6, 2009.
---------------------------------------------------------------------------
    Such relationships between non-state and state actors provide 
numerous benefits to both. In Latin America, for example, the FARC and 
its non-state allies such as ETA, remnants of the Irish Republican Army 
and others gain access to Venezuelan territory without fear of 
reprisals, gain access to Venezuelan identification documents, and, 
perhaps most importantly, access to routes for exporting cocaine to 
Europe and the United States while using the same routes to import 
quantities of sophisticated weapons and communications equipment. In 
return, the Chavez government offers state protection and reaps rewards 
in the form of financial benefits for individuals and as institutional 
and materiel benefits derived from the cocaine and contraband trade.
    Iran, whose banks are largely barred from the Western financial 
systems, benefits from access to the international financial market 
through Venezuelan, Ecuadoran, and Bolivian financial institutions, 
which act as proxies by moving Iranian money as if it originated in 
their own, unsanctioned financial systems.\17\ Venezuela also agreed to 
provide Iran with 20,000 barrels of gasoline a day--leading to U.S. 
sanctions against the state petroleum company PDVSA earlier this 
year.\18\
---------------------------------------------------------------------------
    \17\ For a look at how the Ecuadoran and Venezuelan banks function 
as proxies for Iran, particularly the Economic Development Bank of 
Iran, sanctioned for its illegal support of Iran's nuclear program, and 
the Banco Internacional de Desarrollo, see: Farah and Simpson, op cit.
    \18\ Office of the Spokesman, ``Seven Companies Sanctioned Under 
Amended Iran Sanctions Act,'' U.S. Department of State, May 24, 2011, 
http://www.state.gov/r/pa/prs/ps/2011/05/164132.htm.
---------------------------------------------------------------------------
    While the ties between Iran and Hezbollah are generally accepted, 
there is a reluctance in some parts of the policy community to 
acknowledge the similar type of relationship that Venezuela and other 
Bolivarian states have with the FARC.
    There is abundant evidence establishing Chavez's direct and 
personal involvement with the FARC, along with senior military and 
political officials, I will list only some of them.
    OFAC has designated numerous senior Venezuelan officials, including 
the heads of two national intelligence services, as terrorist 
supporters for direct support of the FARC in the acquisition of weapons 
and drug trafficking.\19\ Among those designated are Hugo Armando 
Carvajal, director of Venezuelan Military Intelligence; Henry de Jesus 
Rangel, director of the Venezuelan Directorate of Intelligence and 
Prevention Services; and Ramon Emilio Rodriguez Chacon, former minister 
of justice and former minister of interior--were responsible for 
``materially supporting the FARC, a narco-terrorist organization.''
---------------------------------------------------------------------------
    \19\ Among those designated were Hugo Armando Carvajal, director of 
Venezuela's Military Intelligence Directorate for his ``assistance to 
the FARC, (including) protecting drug shipments from seizure''; Henry 
de Jesus Rangel Silva, director of Venezuela's Directorate of 
Intelligence and Prevention Services for ``materially assisting the 
narcotics activities of the FARC''; and Ramon Emilio Rodriguez Chacin, 
at the time Venezuela's minister of interior and justice, described as 
``the Venezuelan government's main weapons contact for the FARC.'' See 
the full designation at: http://treas.tpaq.treasury.gov/press/releases/
hp1132.htm.
---------------------------------------------------------------------------
    The designation statement accused Carvajal and Rangel of protecting 
FARC cocaine shipments moving through Venezuela, and said Rodriguez 
Chacin, who resigned his government position just a few days before the 
designations, was the ``Venezuelan government's main weapons contact 
for the FARC.''\20\ In November 2010 Rangel was promoted to the overall 
commander of the Venezuelan armed forces.\21\
---------------------------------------------------------------------------
    \20\ ``Treasury Targets Venezuelan Government Officials Support of 
the FARC,'' U.S. Treasury Department Office of Public Affairs, Sept. 
12, 2008. The designations came on the heels of the decision of the 
Bolivian government of Evo Morales to expel the U.S. ambassador, 
allegedly for supporting armed movements against the Morales 
government. In solidarity, Chavez then expelled the U.S. ambassador to 
Venezuela. In addition to the designations of the Venezuelan officials, 
the United States also expelled the Venezuelan and Bolivian ambassadors 
to Washington.
    \21\ ``Chavez Shores up Military Support,'' Stratfor, November 12, 
2010.
---------------------------------------------------------------------------
    Senior officials in Ecuador and Bolivia have also been publicly 
tied both to the FARC and the FARC's drug trafficking activities. In 
Ecuador, a senior cabinet official met repeatedly with FARC leaders and 
there is strong evidence that the Correa campaign received several 
hundred thousand dollars in donations from the FARC.\22\ In Bolivia, 
senior members of president Evo Morales' MAS party have worked closely 
with the FARC,\23\ and a senior police commander who ran the elite 
counter-narcotics unit was recently arrested for trafficking cocaine 
and extradited to the United States.\24\
---------------------------------------------------------------------------
    \22\ For a more complete look at the documentation of the Correa 
and Chavez ties to the FARC see: ``The FARC Files: Venezuela, Ecuador 
and the Secret Archive of `Raul Reyes,' '' International Institute for 
Strategic Studies, May 2011, http://www.iiss.org/publications/
strategic-dossiers/the-farc-files-venezuela-ecuador-and-the-secret-
archive-of-ral-reyes/; Farah and Simpson, op cit.; Francisco Huerta 
Montalvo et al, ``Informe Comision de Transparencia y Verdad: Caso 
Angostura,'' December 10, 2009.
    \23\ For details see: Douglas Farah, ``Into the Abyss: Bolivia 
Under Evo Morales and the MAS,'' International Assessment and Strategy 
Center, June 17, 2009, http://www.strategycenter.net/research/
pubID.200/pub_detail.asp.
    \24\ Martin Arostegui, ``Drug Scandal Shakes Bolivia,'' Wall Street 
Journal, March 3, 2011.
---------------------------------------------------------------------------
                 the origins of the ideological kinship
    As noted, the Chavez model of allying with state sponsors of 
terrorism such as Iran while sponsoring violent non-state terrorist 
organizations involved in criminal activities and terrorism strongly 
resembles the template used by Hezbollah and Iran.
    In order to understand the relationship, it is important to 
understand the thinking of two significant ideological influences in 
the world of Hugo Chavez about what they view as the seminal event in 
goal of destroying the United States. That event was the 1979 Iranian 
Revolution.
    While Iran's revolutionary rulers view the 1979 revolution in 
theological terms as a miracle of divine intervention in which the 
United States, as the Great Satan was defeated, the Boliviarians view 
it from a secular point of view as roadmap to defeat the United State 
as the evil Empire.
    Among the first to articulate the possible merging of radical 
Shi'ite Islamic thought with Marxist aspirations of destroying 
capitalism and U.S. hegemony was Illich Sanchez Ramirez, better known 
as the terrorist leader Carlos the Jackal, a Venezuelan citizen who 
was, until his arrest in 1994, one of the world's most-wanted 
terrorists. In his writings, Sanchez Ramirez espouses Marxism tied to 
revolutionary, violent Palestinian uprisings, and, in the early 2000s 
after becoming a Muslim, militant Islamism.
    In his 2003 book Revolutionary Islam, written from prison where he 
is serving a life sentence for killing two French policemen, Sanchez 
Ramirez praises Osama bin Laden and the 9/11 attacks on the United 
States as a ``lofty feat of arms'' and part of a justified ``armed 
struggle'' of Islam against the West. ``From now on terrorism is going 
to be more or less a daily part of the landscape of your rotting 
democracies,'' he wrote.\25\
---------------------------------------------------------------------------
    \25\ `` `Jackal' book praises bin Laden,'' BBC News, June 26, 2003.
---------------------------------------------------------------------------
    In this context, the repeated, public praise of Chavez for Sanchez 
Ramirez can be seen as a crucial element of the Bolivarian ideology, 
and an embracing of terrorist tactics to achieve justifiable ends. 
Chavez ordered his ambassador to France to seek the release of Sanchez 
Ramirez and on multiple occasions, including many times after 9/11, 
referred to the convicted terrorist as a ``friend'' and ``true 
revolutionary.''\26\ In a 1999 letter to Sanchez Ramirez, Chavez 
greeted the terrorist as a ``Distinguished Compatriot'' and wrote that
---------------------------------------------------------------------------
    \26\ See, for example: Associated Press, ``Chavez: `Carlos the 
Jackal' a `Good Friend' '' June 3, 2006.

``Swimming in the depths of your letter of solidarity I could hear the 
pulse of our shared insight that everything has its due time: time to 
pile up stones or hurl them, to ignite revolution or to ignore it; to 
pursue dialectically a unity between our warring classes or to stir the 
conflict between them--a time when you can fight outright for 
principles and a time when you must choose the proper fight, lying in 
wait with a keen sense for the moment of truth, in the same way that 
Ariadne, invested with these same principles, lays the thread that 
leads her out of the labyrinth . . . 
``I feel that my spirit's own strength will always rise to the 
magnitude of the dangers that threaten it. My doctor has told me that 
my spirit must nourish itself on danger to preserve my sanity, in the 
manner that God intended, with this stormy revolution to guide me in my 
great destiny.
``With profound faith in our cause and our mission, now and 
forever!''\27\
---------------------------------------------------------------------------
    \27\ Paul Reyes (translator) and Hugo Chavez, ``My Struggle,'' from 
a March 23, 1999 letter to Illich Ramirez Sanchez, the Venezuelan 
terrorist known as Carlos the Jackal, from Venezuelan president Hugo 
Chavez in response to a previous letter from Ramirez, who is serving a 
life sentence in France for murder. Harper's, October 1999, http://
harpers.org/archive/1999/10/0060674.

    In fact, the Bolivarian fascination with the militant Islamist 
thought and Marxism did not end with the friendship between Chavez and 
the jailed terrorist. Acolytes of Sanchez Ramirez continued to develop 
his ideology of Marxism and radical Islamism rooted in their 
interpretation of the Iranian revolution.
    Since 2005, Chavez has rewritten Venezuela's security doctrine to 
scrub it of all outside (meaning U.S.), ``imperialist'' influences. To 
replace the old doctrine, Chavez and the Venezuelan military leadership 
have focused on developing a doctrine centered on asymmetrical warfare, 
in the belief that the primary threat to Venezuelan security is a U.S. 
invasion.
    The emerging military doctrine of the ``Bolivarian Revolution,'' 
officially adopted in Venezuela and rapidly spreading to Bolivia, 
Nicaragua, and Ecuador, explicitly embraces the radical Islamist model 
of asymmetrical or ``fourth generation warfare,'' and its heavy 
reliance on suicide bombings and different types of terrorism, 
including the use of nuclear weapons. This is occurring at a time when 
Hezbollah's presence in Latin America is growing and becoming more 
identifiable.\28\
---------------------------------------------------------------------------
    \28\ In addition to Operation Titan there have been numerous 
incidents in the past 18 months of operatives being directly linked to 
Hezbollah have been identified or arrested in Venezuela, Colombia, 
Guatemala, Aruba, and elsewhere in Latin America.
---------------------------------------------------------------------------
    The main book Chavez has adopted as his military doctrine is 
Peripheral Warfare and Revolutionary Islam: Origins, Rules, and Ethics 
of Asymmetrical Warfare (Guerra Periferica y el Islam Revolucionario: 
Origenes, Reglas y Etica de la Guerra Asimetrica) by the Spanish 
politician and ideologue Jorge Verstrynge.\29\ The tract is a 
continuation of and exploration of Sanchez Ramirez's thoughts, 
incorporating an explicit endorsement of the use of weapons of mass 
destruction to destroy the United States.
---------------------------------------------------------------------------
    \29\ Verstrynge, born in Morocco to Belgian and Spanish parents, 
began his political career on the far right of the Spanish political 
spectrum as a disciple of Manuel Fraga, and served in several senior 
party posts with the Alianza Popular. By his own admission he then 
migrated to the Socialist Party, but never rose through the ranks. He 
is widely associated with radical anti-globalization views and anti-
U.S. rhetoric, repeatedly stating that the United States is creating a 
new global empire and must be defeated. Although he has no military 
training or experience, he has written extensively on asymmetrical 
warfare.
---------------------------------------------------------------------------
    Although he is not a Muslim and the book was not written directly 
in relation to the Venezuelan experience, Verstrynge lauds radical 
Islam for helping to expand the parameters of what irregular warfare 
should encompass, including the use of biological and nuclear weapons, 
along with the correlated civilian casualties among the enemy.
    Central to Verstrynge's idealized view of terrorists is the belief 
in the sacredness of the willingness of the fighters to sacrifice their 
lives in pursuit of their goals. Before writing extensively on how to 
make chemical weapons and listing helpful places to find information on 
the manufacture of rudimentary nuclear bombs that ``someone with a high 
school education could make,'' Verstrynge writes:

``We already know it is incorrect to limit asymmetrical warfare to 
guerrilla warfare, although it is important. However, it is not a 
mistake to also use things that are classified as terrorism and use 
them in asymmetrical warfare. And we have super terrorism, divided into 
chemical terrorism, bioterrorism (which uses biological and 
bacteriological methods), and nuclear terrorism, which means `the type 
of terrorism uses the threat of nuclear attack to achieve its goals.' 
''\30\
---------------------------------------------------------------------------
    \30\ Verstrynge, op cit., pp. 56-57.


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    In a December 12, 2008 interview with Venezuelan state television, 
Verstrynge lauded Osama bin Laden and al-Qaeda for creating a new type 
of warfare that is ``de-territorialized, de-stateized and de-
nationalized,'' a war where suicide bombers act as ``atomic bombs for 
the poor.''\31\
---------------------------------------------------------------------------
    \31\ Bartolome, op cit. See also: John Sweeny, ``Jorge Verstrynge: 
The Guru of Bolivarian Asymmetric Warfare,'' www.vcrisis.com, Sept. 9, 
2005; and ``Troops Get Provocative Book,'' Miami Herald, Nov. 11, 2005.
---------------------------------------------------------------------------
    Based on this book, Verstrynge was invited by Chavez to give the 
keynote address to military leaders in a 2005 conference titled ``First 
Military Forum on Fourth Generation Warfare and Asymmetric Conflict'' 
held at the Venezuelan military academy. Following the conference Gen. 
Raul Baduel, the army commander and Chavez confidant, ordered a special 
pocket-size edition of the book to be printed up and distributed 
throughout the officer corps with explicit orders that it be studied 
cover to cover.\32\
---------------------------------------------------------------------------
    \32\ For a more complete discussion of how Verstrynge's concepts 
fit into Chavez's concept of the Bolivarian revolution see: Mariano 
Cesar Bartolome, ``Las Guerras Asimetricas y de Cuarta Generacion 
Dentro Del Pensamiento Venezolano en Materia de Seguridad y Defensa,'' 
(Asymmetrical and Fourth Generation Warfare In Venezuelan Security and 
Defense Thinking), Military Review, January-February 2008, pp. 51-62.
---------------------------------------------------------------------------
    This ideological framework of Marxism and radical Islamic 
methodology for successfully attacking the United States is an 
important, though little examined, underpinning for the greatly 
enhanced relationships among the Bolivarian states and Iran and their 
respective non-state proxies, most prominently Hezbollah. For Iran the 
benefits are numerous, particularly in building alliances with nations 
to break its international isolation. But it also affords the 
opportunity to mine strategic minerals for its missile and nuclear 
programs, position Quds Force and Revolutionary Guard operatives under 
diplomatic cover, greatly expand and enhance its intelligence 
gathering, and operate state-to-state enterprises that allow for the 
movement of just about any type of goods and material, and more 
generally acclimate to operations in Latin America, including those 
aimed toward the United States.
    One glimpse at the type of shipments such a relationship can used 
for came to light in 2009, when Turkish authorities randomly inspected 
some crates being shipped from Iran to Venezuela at the port of Mersin. 
The 22 crates were labeled ``tractor parts'' but in fact carried 
equipment for establishing a laboratory for manufacturing 
explosives.\33\
---------------------------------------------------------------------------
    \33\ ``Turkey holds suspicious Iran-Venezuela shipment,'' 
Associated Press, June 1, 2009. http://www.ynetnews.com/articles/
0,7340,L-3651706,00.html.
---------------------------------------------------------------------------
       the west africa cocaine pipeline: another dangerous nexus
    As cocaine trafficking routes shift significantly to transit West 
Africa en route to the European market, there is another avenue opening 
for Hezbollah in Latin America and potential ties to the FARC.
    The movement of drugs, particularly cocaine, through West Africa is 
the product of several developments in the overall drug trade, and the 
consequences are already devastating, as shown by the new wave of 
political instability and the creation of the continent's first true 
``narco-states.''\34\
---------------------------------------------------------------------------
    \34\ For a more complete look at this trend see: Douglas Farah, 
``Confronting Drug Trafficking in West Africa,'' Testimony before the 
Senate Foreign Relations Committee Subcommittee on African Affairs, 
June 23, 2009.
---------------------------------------------------------------------------
    The FARC has a well-established network, including financial 
handlers, already established in Europe, particularly in Spain, where a 
good portion of the cocaine enters the European Union. The organization 
also maintains a presence on the ground in West Africa to handle drug 
shipments, a role demonstrated in a high-profile series of busts by the 
DEA in Liberia.\35\ Hezbollah, as discussed below, has a long history 
in West Africa and controls most of the illicit trade pipelines in the 
region.
---------------------------------------------------------------------------
    \35\ See Farah, PRISM, op cit; and Benjamin Weiser and William K. 
Rashbaum, ``Liberian Officials Worked with U.S. Agency to Block Drug 
Traffic,'' The New York Times, June 2, 2010.
---------------------------------------------------------------------------
    It is interesting to note that most of the largest cocaine busts in 
West Africa have come aboard aircraft that departed from Venezuela.\36\ 
Since Chavez expelled the Drug Enforcement Administration from 
Venezuela in 2006, and has halted all counter-narcotics cooperation, 
U.S. officials describe Venezuela as a ``black hole.'' Not only does 
the Venezuelan government's attitude encourage drug trafficking by the 
FARC and others,\37\ but Venezuela's geographic proximity to West 
Africa make it an ideal launching pad. This is true for both maritime 
operations and the use of aircraft.
---------------------------------------------------------------------------
    \36\ Among the largest was the May 1, 2007 seizure of 630 kilograms 
of cocaine aboard a Cessna aircraft in Nouhabidou, Mauritania. The 
airplane's GPS showed it had taken off from Venezuelan territory. See: 
``Cocaine Trafficking in Western Africa: Situation Report,'' UNODC, 
October 2007, pg. 9. In July 2008 another aircraft with 600 kilograms 
of cocaine and using a false Red Cross emblem on its tail, was seized 
in Sierra Leone. Another case in 2010 intercepted 4,000 kilos that was 
to be flown from Venezuela to Monrovia, Liberia. See: ``Manhattan U.S. 
Attorney Charges Three al-Qaeda Associates with Conspiring to Transport 
Cocaine through Africa for the FARC,'' PR Newswire, December 18, 2009; 
Farah, PRISM, op. cit.
    \37\ The most dramatic recent revelations of the complicity of 
senior Venezuelan officials in the cocaine trade came in the case of 
Walid Makled, the alleged link between the FARC and Hezbollah for drug 
trafficking activities. Makled was a well-known financial supporter of 
Chavez who was designated a major drug trafficking kingpin by the 
United States. Makled was arrested in Colombia in October 2010, where 
he gave details of his monthly payments, totaling more than $1 million, 
to senior Venezuelan military officials, family members of sitting 
cabinet officials, and other senior officials. The Colombian decision 
to extradite Makled to Venezuela rather than the United States caused 
significant tension between the two countries and probably means that 
the bulk of the evidence he claims to possess will never see the light 
of day. Among the documents he presented in prison were checks of his 
cashed by senior generals and government officials and videos of what 
appear to be senior government officials in his home discussing cash 
transactions. For details of the case see: Jose de Cordoba and Darcy 
Crowe, ``U.S. Losing Big Drug Catch,'' The Wall Street Journal, April 
1, 2011; ``Manhattan U.S. Attorney Announces Indictment of one of 
World's Most Significant Narcotics Kingpins,'' United States Attorney, 
Southern District of New York, November 4, 2010.
    ``Makled: Tengo suficientes pruebas sobre corrupcion y narcotrafico 
para que intervengan a Venezuela,'' NTN24 TV (Colombia), April 11, 
2011.
---------------------------------------------------------------------------
    In West Africa, Hezbollah has long maintained an operational 
presence and has had a significant role in the blood diamond trade and 
many other illicit activities. In addition, many in the Lebanese 
Diaspora community in West Africa, numbering several hundred thousand, 
pay a portion of their earnings to support Hezbollah in Lebanon, with 
the knowledge and acquiescence of the host government.\38\
---------------------------------------------------------------------------
    \38\ See: Edward Harris, ``Hezbollah Extorting Funds From West 
Africa's Diamond Merchants,'' Associated Press, 29 June 2004.
---------------------------------------------------------------------------
    The importance of this revenue stream was revealed when a charter 
flight bound for Beirut from Cotonou, Benin, crashed on takeoff on Dec. 
25, 2003. On board was a Hezbollah ``foreign relations'' official 
carrying $2 million in contributions raised in the region. The money 
was said to represent ``the regular contributions the party [Hezbollah] 
receives from wealthy Lebanese nationals in Guinea, Sierra Leone, 
Liberia, Benin, and other African states.''\39\
---------------------------------------------------------------------------
    \39\ Hamid Ghiryah, ``Hezbullah Officials Carrying Donations 
Reportedly Killed in Lebanese Plane Crash,'' al-Siyasah (Kuwait), Dec. 
29, 2003. For a broader look at the role of the Lebanese diaspora in 
West African illicit trade activities, see: Lansana Gberie, War and 
Peace in Sierra Leone: Diamonds, Corruption and the Lebanese 
Connection, The Diamond and Human Security Project, Occasional Paper 6, 
January 2003.
---------------------------------------------------------------------------
    Given the prominence of the Lebanese Diaspora community and its 
members' control of most of the existing pipeline to import and export 
illegal commodities, it is inevitable that those organizations and the 
drug trafficking groups will encounter each other and mutually benefit 
from each other because each has something the other wants and needs. 
Lebanese networks control the decades-old contraband networks and 
routes to Europe, while the drug traffickers offer a new and lucrative 
product for the existing pipeline. Violent clashes may take place, but 
the history of both groups indicates they will cooperate where useful.
    Given Hezbollah's long-established presence on the ground in the 
region and the closeness of its operatives to that community, it is 
also reasonable to assume that Hezbollah and the drug traffickers, 
operating in the same permissive environment, will cross paths. It is 
precisely this type of environment that allows for the otherwise 
unthinkable alliances to emerge.
    Most are short-lived, centering on specific opportunities and 
operations that can benefit both groups, but others are longer-lasting 
and more dangerous. The adaptive nature of the actors and the networks 
make any number of recombinant forms and outcomes possible. This at 
once makes their detection, real-time monitoring, and effective 
disruption or interdiction by the United States and other government 
and international intelligence and enforcement system, as presently 
configured, nearly impossible.
    Drug trafficking in West Africa also directly strengthens those who 
seek not only to harm the United States but also to strangle the 
struggling liberal democracies in Latin America. These include Hugo 
Chavez in Venezuela, his allies in Iran, the FARC, and Hezbollah. As 
noted above, the circumstances in West Africa are ideal for allowing 
many of these non-state criminal and terrorist organizations to greatly 
expand their cooperation. The money raised from the cocaine trade on 
the West Africa route brings all these threats closer to the United 
States.
                              conclusions
    Hezbollah's presence in Latin America is growing, and the 
organization remains the premiere terrorist organization in the world. 
It is growing both in economic capacity and in its placing of 
operatives in the region through the rapid expansion of Iran's 
diplomatic and intelligence missions, businesses, and investments.
    The threat posed by Hezbollah in Latin America to the U.S. homeland 
centers not only on the organization itself and its demonstrated 
capacity and willingness to attack the interests of the United States 
and its allies. It centers also on the organization's relationship with 
a continuum of actors from states sponsors (Iran and Syria) to 
hospitable states (Venezuela and its Bolivarian allies) to allied 
terror and criminal entities (the FARC and its allies in the MCB).
    The core shared beliefs of these varied actors is that the United 
States is a primary enemy that needs to be destroyed; that WMD is a 
legitimate option to achieve that end; that the Iranian revolution 
offers model for defeating the United States; and that the ability to 
wage sophisticated asymmetrical warfare, which so far has reached its 
pinnacle in the 9/11 attacks on the Homeland, is central to their 
military doctrine.
    These states have embraced the concept of using designated 
terrorist organizations as proxies for furthering their regional goals 
and as instruments of statecraft. This has afforded state protection to 
these groups and accelerated the criminalization of the states 
themselves while also spreading support to fellow radicals seeking to 
subvert regional democracies toward similar ends.
    This combination of relationships--Iran to Hezbollah, Iran to 
Venezuela and the Bolivarian states; Venezuela's ties to the FARC and 
the growing evidence of joint Hezbollah and FARC drug transnational and 
transcontinental trafficking activity combine to indicate that 
Hezbollah's presence constitutes a significant threat to the U.S. 
homeland. To view Hezbollah as an isolated actor gaining a small 
foothold in Latin America, as is often done in policy circles, is to 
misunderstand the nature of the threat, the meaning of the realities on 
the ground, and their potential consequences.

    Mr. Meehan. Thank you, Mr. Farah.
    Our next witness is Mr. Ilan Berman. Mr. Berman is vice 
president of the American Foreign Policy Council. He has been a 
former consultant for the Department of Defense and the Central 
Intelligence Agency, and provided expertise and counsel to a 
number of other Government agencies and Congressional offices.
    Mr. Berman also concurrently serves as associate faculty to 
the Missouri State University's Department of Defense and 
Strategic Studies, a columnist for Forbes Magazine, and as 
editor for the Journal of International Security Affairs.
    Mr. Berman received his undergraduate degree from Brandeis 
University and went on to obtain a master's from American 
University, and his juris doctorate from Washington College of 
Law, also at the American University here in Washington.
    Mr. Berman, we look forward to your testimony.

  STATEMENT OF ILAN BERMAN, VICE PRESIDENT, AMERICAN FOREIGN 
                         POLICY COUNCIL

    Mr. Berman. Mr. Chairman, thank you very much. Thank you 
for the opportunity to come and testify before you today on 
this issue, which is, I believe, of paramount importance to--
not only to our understanding of where we are and where we 
going in the struggle against international terrorism, but also 
to the safety and security of the U.S. homeland as well.
    Let me start by referencing a quote that the Ranking Member 
mentioned. A year after the September 11 attacks, then-Deputy 
Secretary of State Richard Armitage made a telling assessment 
when he called Hezbollah, rather than al-Qaeda, ``the A-Team of 
international terrorists.'' What lies behind that assessment 
is, I think, a rather stunning network in terms of its breadth 
and its sophistication.
    Hezbollah today is active on 5 continents, in 40 or more 
countries. It has an operating budget of perhaps as much as $20 
million annually derived from various sources. Yet, despite 
this web of money and this web of activity, Hezbollah's global 
footprint is fairly poorly understood. It is acknowledged here, 
as this hearing shows, but it is fairly poorly understood both 
in terms of its scope and also in terms of its potential impact 
on the United States and U.S. National security.
    In the Western Hemisphere specifically, Hezbollah has 
erected what could be called a stronghold south of the U.S. 
border. The Tri-Border Area, where Paraguay, Brazil, and 
Argentina intersect, is obviously the most active, and, in 
fact, it is very lucrative in the sense that it has been 
estimated that Hezbollah generates as much as $20 million 
annually from its activities in the Tri-Border region that go 
to finance and funnel the group's activities throughout the 
world.
    But it is certainly not the only outpost that Hezbollah has 
created in the region. You have incidents of narcotrafficking 
and money-laundering enterprises in Colombia. You have 
instances of training camps and government assistance, 
including financial assistance, from Venezuela. You have, in 
Mexico, just south of the U.S. border, you have instances not 
only of the country serving as a fund-raising hub and a 
financial conduit to Hezbollah, but also as a base for 
infiltration into the United States.
    As this committee itself noted 5 years ago, Hezbollah 
agents and Hezbollah operatives have used the porous border 
between the United States and Mexico in the past to infiltrate. 
Although we don't quite know the scope of that activity, what 
seems clear from on-going FBI investigations and on-going 
border security apprehensions is that that activity is still 
on-going.
    But, Mr. Chairman, you mentioned Hezbollah activity 
specifically in Latin America. I wanted to broaden the scope a 
little bit if I could and talk a little bit about the United 
States and Canada, because the footprint of Hezbollah extends 
not just south of our border, but also within the United States 
and north as well.
    Today, in the United States, law enforcement agencies 
believe that Hezbollah is present in active cells in no fewer 
than 15 cities, spanning from Los Angeles to New York, and that 
the organization not only has a fund-raising base in this 
country, but also has the capability, the operational 
capability, to strike targets if it chooses to do so. There is 
obviously an assessment that, because of the lucrative nature 
of Hezbollah's activities in the United States, this isn't a 
high priority at the moment. But there are precipitating 
factors that could change this calculus, among them a change of 
circumstance for Iran in the international standoff over its 
nuclear program.
    In Canada, you have also seen significant fund-raising 
activity from Hezbollah centering in Ottawa, in Montreal, in 
Vancouver and in Toronto, the latter specifically because of 
its proximity to the United States. And as a result, experts 
believe that Hezbollah is better-positioned in North America 
than any other terrorist group in the world, including al-
Qaeda, which is, I think, a significant assessment.
    I would note in closing that it is very hard to make an 
accurate assessment of both Hezbollah's capabilities and 
Hezbollah's intentions without taking into account the Islamic 
Republic of Iran. Hezbollah is an Iranian creation, and 
Hezbollah, in its charter, which was articulated publicly in 
1985, pledged allegiance to the Velayat-e-faqih, the rule of 
the jurisprudent that governs the Iranian--the Islamic Republic 
of Iran. And as a result, a lot of what Iran is doing in the 
region is consistent with and, in turn, reinforced by 
Hezbollah's activities in the region.
    Iran now is looking at Latin America specifically for three 
interlocking goals. It looks at Latin America as a way to ease 
its international isolation. Iranian officials understand very 
well that their nuclear program could leave them isolated, and 
so they are looking for international partners. It seeks access 
to critical resources, such as raw uranium, for example, 
through its partnership with Venezuela. It seeks to create an 
anti-American coalition that would further its objective of 
diminishing American power abroad. In all of these fronts, 
Hezbollah has served as an asymmetric proxy and as a force 
multiplier for Iranian interests.
    In closing, let me say that Hezbollah activities can 
properly be assessed today in the Western Hemisphere as support 
activities, activities that represent potential political, 
economic, organizational gain for the organization at large. 
But Hezbollah constitutes a significant potential threat. If 
political circumstances in Lebanon, political circumstances 
internationally with regard to Iran change, Hezbollah and the 
foothold that it has established on this hemisphere could 
potentially become a serious threat to U.S. National security 
directly.
    Thank you.
    [The statement of Mr. Berman follows:]
                   Prepared Statement of Ilan Berman
                              July 7, 2011
    Chairman Meehan, distinguished Members of the subcommittee: Thank 
you for the opportunity to appear before you today to discuss the 
Hezbollah terrorist organization, its capabilities, and its activities 
in the Western Hemisphere. It is an issue of critical importance to the 
on-going struggle against international terrorism, and to the safety 
and security of the U.S. homeland.
    A year after the 9/11 attacks, then-Deputy Secretary of State 
Richard Armitage, in contextualizing the terrorist threat facing the 
country, made a telling assessment. ``Hezbollah may be the A-team of 
terrorists,'' Mr. Armitage told an audience at the United States 
Institute of Peace in Washington, DC, ``and maybe al-Qaida is actually 
the B-team.''\1\ The description was apt, and remains so. With a 
presence in an estimated 40 countries on 5 different continents, the 
Lebanese Shi'ite militia represents one of the very few terrorist 
groups active today that possess a truly global presence and reach.
---------------------------------------------------------------------------
    \1\ Richard Armitage, ``America's Challenges in a Changed World,'' 
remarks to the United States Institute of Peace, Washington, DC, 
September 5, 2002, http://web.archive.org/web/20020917202341/
www.state.gov/s/d/rm/2002/13308pf.htm.
---------------------------------------------------------------------------
    This footprint extends not only to the greater Middle East and 
Europe, but to the Western Hemisphere as well.\2\ Over the past 
quarter-century, Hezbollah has devoted considerable energy and 
resources to establishing an extensive network of operations throughout 
the Americas. Today, its web of activity in our hemisphere stretches 
from Canada to Argentina, and encompasses a wide range of illicit 
activities and criminal enterprises, from drug trafficking to 
recruitment to fundraising and training.
---------------------------------------------------------------------------
    \2\ For a detailed overview of Hezbollah's global activities, see 
the ``Hezbollah'' chapter of the American Foreign Policy Council's 
World Almanac of Islamism, which is accessible on-line at http://
almanac.afpc.org/hezbollah.
---------------------------------------------------------------------------
                    a stronghold south of the border
    It is something of a truism of American politics that policymakers 
in Washington pay only sporadic attention to the happenings in their 
own geopolitical backyard. The relatively low profile of Latin America 
in our National security policymaking is deeply counterintuitive, given 
the region's proximity to the U.S. homeland. It is also potentially 
dangerous, because its political environment--marked by large 
ungoverned areas and typified by widespread anti-American sentiment--
has created a fertile operating environment for a range of radical 
groups, including those from the greater Middle East. According to U.S. 
Government estimates, no fewer than six Islamic terrorist groups 
(including al-Qaeda and the Palestinian Hamas movement) are now active 
in Latin America.\3\
---------------------------------------------------------------------------
    \3\ Rex Hudson, Terror and Organized Crime Groups in the Tri-Border 
Area (TBA) of South America, Library of Congress, Federal Research 
Division, December 2010, http://www.loc.gov/rr/frd/pdf-files/
TerrOrgCrime_TBA.pdf.
---------------------------------------------------------------------------
    Hezbollah, however, is far and away the most prominent. Its 
presence in the region stretches back to the 1980s, when operatives--
taking advantage of weak regional governance and with support from 
Iran--began to expand the organization's already-substantial 
international drug-trafficking and smuggling activities from Lebanon's 
Beka'a Valley to the ``Tri-Border Region'' at the intersection of 
Argentina, Brazil, and Paraguay.\4\ Hezbollah's regional presence and 
capabilities were dramatically demonstrated in March of 1992, when the 
organization carried out a suicide bombing against Israel's embassy in 
Buenos Aires, Argentina, killing 29 and injuring 242 others. Two years 
later, in July 1994, the group struck again, bombing the Argentine-
Israel Mutual Association (known as AMIA) in Buenos Aires. These 
attacks, which still rank as the most devastating in South American 
history, led U.S. officials to conclude that Hezbollah had become ``the 
major international terrorist threat'' in the region.\5\
---------------------------------------------------------------------------
    \4\ Rachel Ehrenfeld, Funding Evil: How Terrorism is Financed--and 
How to Stop It (Chicago: Bonus Books, 2003), 145-48.
    \5\ U.S. Department of State Coordinator for Counterterrorism 
Phillip Wilcox, Jr., Testimony before the House of Representatives 
Committee on International Relations, September 28, 1995, http://
dosfan.lib.uic.edu/ERC/bureaus/lat/1995/950928WilcoxTerrorism.html.
---------------------------------------------------------------------------
    More than a decade-and-a-half later, Hezbollah's footprint in the 
region remains extensive. It encompasses:
    The Tri-Border Region.--The lawless territory where Argentina, 
Paraguay, and Brazil meet continues to serve as the epicenter of 
Hezbollah activity in Latin America. Since the 1980s, the organization 
has exploited the region's permissive political atmosphere and lack of 
governmental controls for a broad range of illicit activities, 
including smuggling, extortion, and narcotics trafficking. These 
enterprises are highly lucrative; the RAND Corporation has estimated 
that Hezbollah cumulatively nets some $20 million annually from the 
Tri-Border Region alone.\6\ As a result, experts say, the area 
constitutes the organization's most significant source of independent 
funding.\7\
---------------------------------------------------------------------------
    \6\ See Gregory F. Treverton et al., Film Piracy, Organized Crime, 
and Terrorism (Santa Monica: RAND, 2009), xi, http://www.rand.org/pubs/
monographs/2009/RAND_MG742.- sum.pdf.
    \7\ Ehrenfeld, Funding Evil, 147.
---------------------------------------------------------------------------
    Colombia.--In 2008, U.S. and Columbian investigators capped a 2-
year investigation by successfully dismantling a major transnational 
cocaine smuggling and money laundering ring originating out of Bogota, 
Columbia. The illicit network, run by Lebanese national Chekry Harb, 
was found to have funneled at least part of its profits to 
Hezbollah.\8\ Columbia, however, is more than simply a fundraising hub 
for Hezbollah; the organization is also known to have formed cells in 
the country, exploiting the sizeable Shi'ite Muslim community there.\9\ 
And, as a result of its narcotics trafficking activities, Hezbollah is 
also believed to have forged close and collaborative ties to the 
country's premier terrorist group, the Revolutionary Armed Forces of 
Columbia, or FARC.\10\
---------------------------------------------------------------------------
    \8\ Chris Kraul and Sebastian Rotella, ``Drug Probe finds Hezbollah 
Link,'' Los Angeles Times, October 22, 2008, http://
articles.latimes.com/2008/oct/22/world/fg-cocainering22.
    \9\ Wilcox, testimony before the House of Representatives Committee 
on International Relations.
    \10\ Steven Moonblatt, ``Terrorism and Drugs in the Americas: the 
OAS Response,'' Americas Forum IV, no. 2 (February/March 2004), http://
www.oas.org/ezine/ezine24/Monblatt.htm.
---------------------------------------------------------------------------
    Paraguay.--Paraguay, with its lack of comprehensive 
counterterrorism laws, similarly has emerged as a major fundraising 
hub. Hezbollah was estimated at one time to raise as much as $10 
million annually from there.\11\ (Notably, much of that sum could be 
attributed to Assad Barakat, a Lebanese immigrant to Paraguay, who 
transferred some $6 million annually to the group from his successful 
smuggling and counterfeiting activities between 1999 and his arrest in 
2003.)\12\ Like in Columbia, the organization has exploited Paraguay's 
Muslim community to establish cells and operational capabilities within 
the country.\13\
---------------------------------------------------------------------------
    \11\ Julio A. Cirino, Silvana L. Elizondo, and Geoffrey Wawro, 
``Latin America's Lawless Areas and Failed States: An Analysis of New 
Threats,'' in Latin American Security Challenges: A Collaborative 
Inquiry from North to South (Newport, RI: Naval War College 2004), 24, 
http://www.dtic.mil/cgi-bin/
GetTRDoc?AD=ADA430425&Location=U2&doc=GetTRDoc.pdf.
    \12\ Casey L. Addis and Christopher M. Blanchard, Hezbollah: 
Background and Issues for Congress (Washington, DC: Congressional 
Research Service, January 3, 2011), http://www.fas.org/sgp/crs/mideast/
R41446.pdf.
    \13\ Wilcox, testimony before the House of Representatives 
Committee on International Relations.
---------------------------------------------------------------------------
    Venezuela.--Over the past decade, the regime of Hugo Chavez in 
Caracas has forged an increasingly intimate strategic partnership with 
the Iranian government. As a corollary of those burgeoning ties, and in 
a reflection of Chavez' own support for radical causes, Venezuela has 
emerged as a major hub for Hezbollah. In 2008, the Bush administration 
directly accused the Chavez regime of serving as a safe haven and 
financial supporter of the Lebanese militia. That year, the Treasury 
Department's Office of Foreign Assets Control (OFAC) formally 
designated two individuals, one of them a Venezuelan diplomat, for 
assisting the group. In making the designation, Adam Szubin, OFAC's 
director of political affairs, specifically referred to ``the 
government of Venezuela employing and providing safe harbor for 
Hezbollah facilitators and fundraisers.''\14\ Indeed, Hezbollah is 
known to use Venezuela's free trade zone of Margarita Island as a major 
financing and fundraising center, as well as to possess ``support 
cells'' there.\15\ The organization has also been accused of training 
Venezuelan militants in south Lebanon for possible attacks on American 
soil, and of operating training camps inside Venezuela itself, with the 
collusion of sympathetic government officials.\16\
---------------------------------------------------------------------------
    \14\ Martin Arostengui, ``U.S. Ties Caracas to Hezbollah Aid,'' 
Washington Times, July 7, 2008, http://www.washingtontimes.com/news/
2008/jul/07/us-ties-caracas-to-hezbollah-aid/?page=1.
    \15\ Cirino, Elizondo, and Wawro, ``Latin America's Lawless Areas 
and Failed States,'' 22, 23.
    \16\ Ely Karmon, ``Iran and its Proxy Hezbollah: Strategic 
Penetration in Latin America,'' Real Institute Elcano Working Paper, 
April 15, 2009, http://www.ict.org.il/Articles/tabid/66/Articlsid/677/
currentpage/4/Default.aspx; Alan Levine, ``Hugo's Hezbollah,'' Front 
Page Magazine, December 11, 2008, http://archive.frontpagemag.com/
readArticle.aspx?ARTID=33373.
---------------------------------------------------------------------------
    Mexico.--Mexico's shared border with the United States makes it an 
attractive operating base for Hezbollah activities aimed at penetrating 
the U.S. homeland. As this committee itself noted 5 years ago, 
``[m]embers of Hezbollah, the Lebanon-based terrorist organization, 
have already [illegally] entered to the United States across our 
Southwest border.''\17\ Indeed, in 2006 the FBI broke up a Mexican 
smuggling ring organized by Hezbollah to transport operatives across 
the U.S.-Mexican border,\18\ and last summer the Kuwaiti daily Al-
Siyassah reported that Mexican authorities had successfully identified 
and disbanded a similar network of Lebanese-Mexicans that was being set 
up by the group.\19\ These arrests point to the extensive 
organizational network erected by the group over the past decade-and-a-
half--one that operates out of the country's Shi'a Muslim communities 
in places such as Tijuana, and which partners with drug cartels active 
in the country.\20\ For the moment, however, Federal agents assess that 
the group's main focus in Mexico is to raise funds for its activities 
in the Middle East.\21\
---------------------------------------------------------------------------
    \17\ Majority Staff report, A Line in the Sand: Confronting the 
Threat at the Southwest Border, Report of the Majority Staff, House 
Committee on Homeland Security, Subcommittee on Investigations, n.d., 
http://www.scribd.com/doc/2951526/InvestigaionsBorderReport.
    \18\ ``FBI's Mueller: Hezbollah Busted in Mexican Smuggling 
Operation,'' NewsMax, March 30, 2006, http://archive.newsmax.com/
archives/ic/2006/3/30/223801.shtml.
    \19\ Jack Koury, ``Mexico Thwarts Hezbollah Bid to Set Up South 
American Network,'' Ha'aretz (Tel Aviv), June 7, 2010, http://
www.haaretz.com/news/diplomacy-defense/mexico-thwarts-hezbollah-bid-to-
set-up-south-american-network-1.300360.
    \20\ ``Terrorist Group Setting Up Operations Near Border,'' 10News, 
May 4, 2011, http://www.10news.com/news/27780427/detail.html.
    \21\ Ibid.
---------------------------------------------------------------------------
                      a foothold in north america
    While Hezbollah's presence south of the border represents the most 
visible manifestation of its activities in the Western Hemisphere, the 
group is also active throughout North America.
    In the United States, law enforcement authorities estimate active 
Hezbollah cells and/or supporters to exist in no fewer than 15 
metropolitan centers, stretching from New York to Los Angeles.\22\ 
These cells, like their counterparts in Latin America, are engaged in a 
range of criminal activities. The scope of these enterprises was laid 
bare in the year 2000, when an FBI sting dismantled a Hezbollah ring in 
Charlotte, North Carolina. Initially charged solely with smuggling 
cigarettes from North Carolina to Michigan, the so called ``Charlotte 
Hezbollah Cell'' was ultimately found to have been supplying 
``currency, financial services, training, false documentation and 
identification, communications equipment, explosives, and other 
physical assets'' to the Lebanese militia ``in order to facilitate its 
violent attacks.''\23\
---------------------------------------------------------------------------
    \22\ Gregory T. Diaz and Barbara Newman, Lightning out of Lebanon: 
Hezbollah Terrorists on U.S. Soil (New York: Presidio Press, 2005), 
229.
    \23\ United States v. Mohammad Youssef Hammoud et al., as cited in 
Steven Emerson, American Jihad: The Terrorists Living Among Us (New 
York: The Free Press, 2002), 35-36.
---------------------------------------------------------------------------
    Significantly, the number of Hezbollah operatives in the United 
States has been bolstered by illegal migration and infiltration, 
perhaps substantially so. Authoritative figures regarding the scope of 
this infiltration remain difficult to ascertain. However, repeated 
apprehensions by Mexican authorities of human smuggling networks 
connected to Hezbollah over the past half-decade indicate that this 
troubling pattern of activity continues unabated.
    Hezbollah also has succeeded in establishing a significant base of 
operations in Canada. An investigation by the Canadian Security and 
Intelligence Service (CSIS) in the late 1990s and early 2000s found 
that a Hezbollah network in Vancouver, Toronto, and Montreal had 
laundered tens of thousands of dollars through Canadian banks, and 
shipped equipment to the Middle East for use by Hezbollah militants in 
operations against Israeli targets.\24\ A far greater level of activity 
came to light earlier this year, when the U.S. Treasury Department 
targeted the Lebanese Canadian Bank, a former subsidiary of the Royal 
Bank of Canada with offices in Montreal, as a ``primary money 
laundering concern'' for its role in helping an international criminal 
syndicate wash hundreds of millions of dollars in narcotics revenue. At 
least a portion of the proceeds from this criminal enterprise, a 5-year 
task force headed by Treasury and the Drug Enforcement Administration 
found, were used as ``financial support'' for Hezbollah.\25\ Hezbollah 
is also believed to have a fundraising presence in the Canadian 
capital, Ottawa, as well as in towns surrounding Toronto, in part 
because of that area's sizeable Shi'ite community and its proximity to 
the U.S. border.\26\
---------------------------------------------------------------------------
    \24\ Stewart Bell, ``Hezbollah Uses Canada as Base,'' National 
Post, October 31, 2002, http://www.clhrf.com/documents/
hezbollah.canada.htm.
    \25\ ``US Accuses Lebanon-Canada Bank of Hezbollah Links,'' Agence 
France Presse, February 10, 2011, http://english.alarabiya.net/
articles/2011/02/10/137148.html?PHPSESSID=- v944frchrq16sm3n92iqn53gm6; 
Justin Blum, ``Lebanese Canadian Bank Linked to Drugs, Terror Group,'' 
Bloomberg BusinessWeek, February 10, 2011, http://www.businessweek.com/
news/2011-02-10/lebanese-canadian-bank-linked-to-drugs-terror-
group.html.
    \26\ ``Hezbollah: Profile of the Lebanese Shiite Terrorist 
Organization of Global Reach Sponsored by Iran and Supported by Syria 
(Part 2),'' Center for Special Studies, Intelligence and Terrorism 
Information Center Special Information Paper, July 2003, http://
www.terrorism-info.org.il/malam_multimedia/ENGLISH/IRAN/PDF/
JULY_03.PDF.
---------------------------------------------------------------------------
    These complimentary, overlapping networks have given Hezbollah a 
critical foothold both within and around the U.S. homeland. Indeed, 
counterterrorism experts believe it to be ``better established [in 
North America] than any other terrorist organization in the 
world.''\27\
---------------------------------------------------------------------------
    \27\ LTC Joseph Myers and Patrick Poole, ``Hezbollah, Illegal 
Immigration, and the Next 9/11,'' Front Page Magazine, April 28, 2006, 
http://archive.frontpagemag.com/readArticle.aspx?ARTID=4639.
---------------------------------------------------------------------------
                    hezbollah and iranian interests
    No analysis of Hezbollah activity in the Western Hemisphere would 
be complete, however, without acknowledging the interests and 
objectives of its progenitor and main sponsor, the Islamic Republic of 
Iran. Hezbollah was established by Iran in 1982, in the midst Lebanon's 
civil war, as an umbrella organization unifying the country's various 
Shi'ite militias and Islamist activists. Thereafter, the Islamic 
Republic helped the militia entrench itself in Lebanon, making it a 
major political and operational force in what the Iranian regime 
regarded as the first front in its efforts to ``export the 
revolution.'' And since the mid-1980s, Iran has aided the group's 
worldwide expansion, including into the Western Hemisphere.
    Not surprisingly, Hezbollah's activities in the Americas track 
closely with Iran's own regional activism and strategic objectives. 
Today, this effort is driven by three interconnected goals.
    The first is to lessen the Iranian regime's international 
isolation. When Iran's theretofore-clandestine nuclear program was 
revealed in 2003, regime officials were quick to recognize that the 
issue had the potential to make their country an international pariah. 
As a result, the Islamic Republic significantly intensified its 
diplomatic outreach, seeking to forge new political and economic bonds 
with the international community. This activism has extended to the 
Western Hemisphere, where over the past decade Iran has nearly doubled 
the number of its embassies in Latin America (from 6 in 2005 to 10 in 
2010)\28\ and expanded its bilateral relations with a number of 
sympathetic regional regimes, including that of Hugo Chavez in 
Venezuela and Evo Morales in Bolivia.
---------------------------------------------------------------------------
    \28\ General Douglas M. Fraser, Posture statement before the House 
of Representatives Committee on Armed Services, March 30, 2011, http://
armedservices.house.gov/index.cfm/files/serve?File_id=fcc6b631-6b51-
4bdb-b0a0-6b97ea36cb58.
---------------------------------------------------------------------------
    The second is to access key technologies and strategic resources. 
As pressure on Iran over its nuclear program has increased, the Islamic 
Republic has increasingly looked abroad for critical resources and 
materiel. Latin America has become a key region of interest in this 
regard. Venezuela, for example, has emerged as an important (albeit 
unacknowledged) supplier of the raw uranium critical for Iran's nuclear 
program.\29\ The Chavez regime has also repeatedly offered \30\ to 
supply Iran with as much as 20,000 barrels of gasoline daily as a way 
of diluting the impact of U.S. sanctions aimed at exploiting Iran's 
dependency on foreign refined petroleum.
---------------------------------------------------------------------------
    \29\ See, for example, Bret Stephens, ``The Tehran-Caracas Nuclear 
Axis,'' Wall Street Journal, December 15, 2009, http://online.wsj.com/
article/SB10001424052748704869- 304574595652815802722.html.
    \30\ ``Venezuela Ready to Export Gasoline to Iran,'' Fars (Tehran), 
August 16, 2010, http://english.farsnews.com/
newstext.php?nn=8905251472.
---------------------------------------------------------------------------
    Finally, Iran has worked diligently to dilute U.S. power and 
influence in the Americas. Since taking office in 2005, Iranian 
president Mahmoud Ahmadinejad has made major efforts to forge 
partnerships with anti-American elements in Central and South America, 
playing on common themes of U.S. domination and oppression. Indeed, a 
2009 dossier prepared by Israel's Ministry of Foreign Affairs noted 
that ``since Ahmadinejad's rise to power, Tehran has been promoting an 
aggressive policy aimed at bolstering its ties with Latin American 
countries with the declared goal of `bringing America to its knees.' 
''\31\ The U.S. Department of Defense has concluded much the same 
thing; ``Iran seeks to increase its stature by countering U.S. 
influence and expanding ties with regional actors,'' the Pentagon's 
2010 report on Iranian military power outlined. ``It also seeks to 
demonstrate to the world its `resistance' to the West.''\32\
---------------------------------------------------------------------------
    \31\ ``Israel: Ties to South America Aiding Iran's Nuclear 
Program,'' Yediot Ahronot (Tel Aviv), May 25, 2009, http://
www.ynetnews.com/articles/0,7340,L-3721335,00.html.
    \32\ U.S. Department of Defense, Office of the Secretary of 
Defense, Unclassified Report on Military Power of Iran, April 2010, 
http://www.iranwatch.org/government/us-dod-reportmiliarypoweriran-
0410.pdf.
---------------------------------------------------------------------------
    In furtherance of these goals, Iran has erected a sizeable covert 
presence in the region. The Pentagon has noted that the Qods Force, the 
elite paramilitary unit of Iran's Revolutionary Guards Corps, is now 
deeply involved in the region, stationing ``operatives in foreign 
embassies, charities and religious/cultural institutions to foster 
relationships with people, often building on existing socio-economic 
ties with the well-establish Shia Diaspora,'' and even carrying out 
``paramilitary operations to support extremists and destabilize 
unfriendly regimes.''\33\ And Hezbollah, with its extensive regional 
network, is known to serve as an important force multiplier for these 
efforts.\34\
---------------------------------------------------------------------------
    \33\ Ibid.
    \34\ Hudson, Terror and Organized Crime Groups in the Tri-Border 
Area (TBA) of South America.
---------------------------------------------------------------------------
                      hezbollah and u.s. security
    How real and immediate is the threat posed by Hezbollah to the 
United States? Opinions among experts and U.S. Government officials 
tend to differ. In the main, Hezbollah's presence in the Western 
Hemisphere is manifested in ``support'' activities: Those that provide 
financial, operational, or political benefit to the organization at 
large, and to its principal sponsor, the Islamic Republic of Iran. As a 
result, absent a significant precipitating development in the Middle 
East, the likelihood of a terrorist attack on the United States by 
Hezbollah in the near future remains low.\35\
---------------------------------------------------------------------------
    \35\ Justin Walker and Leila Golestani, ``Threat Analysis: Hamas 
and Hezbollah Sleeper Cells in the United States,'' Urban Warfare 
Analysis Center, March 18, 2009, http://understandterror.com/articles/
Threat%20Analysis%20-%20Hamas%20and%20Hezbollah%20- 
Sleeper%20Cells%20in%20the%20United%20States.pdf.
---------------------------------------------------------------------------
    Nevertheless, the organization represents a significant potential 
threat to the United States. Over the past decade, Hezbollah's regional 
activities have shown a clear pattern of targeting U.S. interests and 
assets throughout Latin America. Among other indicators, Hezbollah 
operatives are known to have cased the U.S. embassy in Paraguay's 
capital of Ascuncion, and local organizational cells have colluded with 
al-Qaeda to plot attacks on U.S. and Jewish targets in the region.\36\ 
Given this pattern of behavior, a recent Library of Congress analysis 
concluded, there is a significant chance Hezbollah operatives could 
seek to carry out attacks on U.S. embassies or consulates in Latin 
America, or to target particular points of interest--such as ``hotels, 
tourism centers, airports, or multinational companies, especially those 
of Israeli, German, French, or U.S. origin''--that are located 
there.\37\
---------------------------------------------------------------------------
    \36\ Cyrus Miryekta, ``Hezbollah in the Tri-Border Area of South 
America,'' Small Wars Journal, September 10, 2010, http://
smallwarsjournal.com/blog/journal/docs-temp/533-miryekta.pdf.
    \37\ Hudson, Terror and Organized Crime Groups in the Tri-Border 
Area (TBA) of South America.
---------------------------------------------------------------------------
    Hezbollah also has the ability to strike at the U.S. homeland 
itself. According to the Federal Bureau of Investigation, Hezbollah 
members located in North America can carry out terrorist attacks 
against targets within the territorial United States, if the 
organization makes a strategic decision to do so.\38\ Given the 
lucrative nature of the organization's illicit activities throughout 
the Hemisphere, the likelihood of such a development remains low. 
Still, Hezbollah's strategic calculus could conceivably change if it or 
its chief sponsor, Iran, were imperiled in a substantial way (for 
example, through military action that targets Iran's nuclear 
facilities). In this sense, Hezbollah can be described as a potential 
insurance policy of sorts for the Iranian regime.\39\
---------------------------------------------------------------------------
    \38\ As cited in Matthew Levitt, Testimony before the House of 
Representatives Committee on International Relations Subcommittee on 
the Middle East and Central Asia and Subcommittee on International 
Terrorism and Nonproliferation, February 16, 2005, http://
www.iranwatch.org/government/US/Congress/Hearings/hirc-sub-021605/us-
hirc-middleeast- sub-levitt-prepared-021605.pdf.
    \39\ Myers and Poole, ``Hezbollah, Illegal Immigration, and the 
Next 9/11.''
---------------------------------------------------------------------------
    Nearly a decade after 9/11, this reality remains poorly understood. 
While U.S. officials now routinely recognize that Hezbollah's regional 
activities make it a potential threat to the United States, our 
counterterrorism policy has failed to focus on the organization at 
large in a comprehensive, sustained, and meaningful way. Such attention 
is long overdue, and the most immediate way the United States can begin 
to address the danger posed by Hezbollah is by acknowledging that the 
organization uses our Hemisphere as a significant staging ground, 
fundraising hub, and operational base--and by beginning to craft a 
strategy to make it more difficult for it to do so.

    Mr. Meehan. Thank you, Mr. Berman.
    Our final witness today is Dr. Melani Cammett. Dr. Cammett 
is the director of the Middle East Studies Program at Brown 
University, where she is also an associate professor for 
political science. Before her current post, she was an 
assistant professor for political economy, also at Brown, and 
as an Academy Scholar at the Weatherhead Center's Harvard 
Academy for International and Area Studies.
    In 2002, Dr. Cammett received her Ph.D. from the University 
of California at Berkley, following two master's degrees, the 
first from Fletcher School at Tufts, and the second from UC 
Berkley.
    In 2007, Dr. Cammett authored her first book, Globalization 
and Business Politics in Arab North Africa: A Comparative 
Perspective. She has written a great deal on a number of issues 
involving the Middle East, with her words appearing in a number 
of journals and other works.
    Dr. Cammett, you are now recognized for your testimony.

 STATEMENT OF MELANI CAMMETT, ASSOCIATE PROFESSOR OF POLITICAL 
   SCIENCE AND DIRECTOR, MIDDLE EAST STUDIES PROGRAM, BROWN 
                           UNIVERSITY

    Ms. Cammett. Thank you for asking me to testify. The United 
States has rightfully been concerned about Hezbollah since the 
1980s. Its activities in Latin America are now a particular 
focus, especially in the Tri-Border areas, as the other 
witnesses have attested.
    To assess the likelihood that Hezbollah will target the 
United States from its Latin America footholds, it is critical 
to understand the evolution of the organization and the way it 
operates, in Lebanon in particular. Hezbollah arose in the 
early 1980s out of specific domestic and regional factors. 
First, it is a by-product of a variety of Lebanese Shia 
political movements that began in the 1960s and 1970s. I won't 
go into detail about these organizations. But by 1981, a 
militant faction broke off from one of these groups to 
establish what was then called the Islamic Amal, and that was 
folded into Hezbollah, which was officially announced in 1985.
    Many other Shia political and religious organizations 
emerged at this time and developed big followings in the 
Lebanese Shia community, both in Lebanon and abroad. Some of 
these groups are explicitly opposed to Hezbollah and condemn it 
for its close ties with Iran, and especially for its, 
Hezbollah's, adherence to the concept of the Velayat-e-faqih. 
So it is important to recognize that not all Shia in Lebanon 
and abroad actually support Hezbollah.
    The Iranian Revolution was a second impetus for the rise of 
Hezbollah. Of course, Iran helped to set up a militia in the 
early 1980s in Lebanon, and also charitable activities.
    Finally, the Israeli invasion of Lebanon in 1982 motivated 
the formation of Hezbollah. This is not a controversial 
statement. This is a point that both Israeli and Hezbollah 
officials agree on. So from the beginning, Hezbollah has 
presented itself as the leader of the ``resistance'' against 
Israel, and continues to do so to this day.
    In the late 1980s and early 1990s, Hezbollah began to 
transition from a predominantly militant organization to 
include greater participation in the formal institutions of the 
state, and this entailed three different components of the 
organization, which were established or consolidated at this 
time: Its military, political, and social welfare wings. Of 
course, in the West, Hezbollah is best known for its militant 
operations, which are largely focused on Israel.
    Hezbollah, it is important to note, emphatically 
differentiates itself from al-Qaeda and from other Sunni 
extremist groups. There are major doctrinal and strategic 
differences between Hezbollah and these types of organizations 
such as al-Qaeda. For one thing, Sunni extremist groups view 
Hezbollah as traitors to Islam, as a traitor to Islam as a Shia 
organization. Also, Hezbollah, unlike these groups, engages in 
mainstream politics.
    In the early 1990s, in 1992 in particular, Hezbollah made 
the strategic decision to field candidates in elections in 
Lebanon. It has done so every year since then, every election 
since then, and, in fact, in 2005, finally accepted cabinet-
level positions in the Lebanese government. This participation 
in the formal institutions of the state, as well as the 
particular rules of the Lebanese electoral system, provide 
incentive for Hezbollah to woo supporters from beyond its own 
religious community and from beyond its hard-core support base.
    It has had a very strong showing in all elections, and 
there are a number of reasons why this might be the case. It 
manages its social welfare programs quite well. Its role as the 
head of the so-called resistance against Israel has garnered a 
lot of domestic support for it. It also has a reputation as a 
clean and uncorrupt organization.
    So all of these militant and non-militant operations are 
quite expensive, of course, but it is really difficult, if not 
impossible, to attain accurate information on its budget and 
funding sources. I have tried to do this in field research in 
Lebanon, but when you speak with Hezbollah officials, they 
point to, of course, charitable donations, various Islamic 
religious taxes that go to them, donations from wealthy 
business people, and investments in their own private 
businesses.
    Of course, Iran is an important contributor to these 
activities as well. It is hard to know how much money Iran 
contributes or how much is generated from its activities in 
Latin America because of the sort of obscure nature of the 
sources that we have on these issues.
    Hezbollah's acts of violence are almost exclusively 
directed at Israel at the present time, and there is no firm 
evidence that Hezbollah aims to target the United States 
militarily. Although Hezbollah condemns the United States for 
its alliance with Israel, it has not targeted U.S. interests 
with violence since the 1980s and has not called for targeting 
the United States.
    So there are a number of reasons why Hezbollah is not 
terribly interested in targeting the United States at the 
moment. Part of it has to do with its political evolution, 
engagement in mainstream politics. Part of it has to do with 
tactical calculations. Again, Latin America is home to many 
Shia migrants, some of which are sympathetic to Hezbollah and 
may give their taxes to clerics affiliated with Hezbollah. But 
it doesn't necessarily mean that they are supportive of 
Hezbollah's violent activities, and those same members of the 
diaspora may be supportive of other Shia organizations in 
Lebanon.
    So to conclude, the proposition that Hezbollah intends to 
launch terrorist acts against the United States from Latin 
America at this time, in my view, is not based on firm 
evidence.
    Thank you very much.
    [The statement of Ms. Cammett follows:]
                  Prepared Statement of Melani Cammett
                              July 7, 2011
    Mr. Chairman and Members of the subcommittee, I want to thank you 
for asking me to testify today.
    Since the early 1980s and with renewed vigor since 9/11, the United 
States has been concerned about the goals and actions of Hezbollah, the 
Shia Muslim party in Lebanon. In the context of the Global War on 
Terror, the organization's activities in Latin America have received 
increased scrutiny.
    In particular, the Tri-Border Area (TBA), or the relatively 
ungoverned region where Argentina, Brazil, and Paraguay meet, is 
alleged to be a key node in Hezbollah's global fundraising network and 
may even provide a launching pad for terrorist operations. Hezbollah 
reportedly engages in money-laundering, counterfeiting, piracy, and 
narcotics trafficking in this region, and uses the area as a base for 
recruitment.\1\
---------------------------------------------------------------------------
    \1\ See, inter alia: Lt. Col. Philip K. Abbott. ``Terrorist Threat 
in the Tri-Border Area: Myth or Reality?'' In Military Review (Sept.-
Oct. 2004): 51; John L. Lombardi and David J. Sanchez, ``Terrorist 
Financing and the Tri-Border Area of South America.'' In Jeanne K. 
Giraldo and Harold A. Trinkunas, eds. Terrorist Financing and State 
Responses: A Comparative Perspective (Stanford: Stanford University 
Press, 2007), pp. 231-246; Gregory F. Treverton, et al. Film Piracy, 
Organized Crime, and Terrorism. (Santa Monica, CA: Rand, 2009), pp. 75-
81.
---------------------------------------------------------------------------
    To contextualize Hezbollah's purported activities in Latin America 
and to assess the likelihood that the organization will use the region 
as a base for targeting U.S. interests, it is critical to understand 
the origins and evolution of the party. My testimony therefore provides 
background on the origins of Hezbollah during the Lebanese civil war 
(1975-1990) and its evolution in postwar Lebanon.
                    the wartime origins of hezbollah
    Hezbollah arose out of specific domestic and regional factors, 
including the historical disenfranchisement of the Shia population in 
Lebanon, the Iranian Revolution, and the Israeli invasion of Lebanon in 
1982.
Shia Mobilization and the Historical Roots of Hezbollah
    Hezbollah is a by-product of Lebanese Shia political movements that 
originated in the 1960s in response to the longstanding marginalization 
of the Shia community in domestic politics and society. Historically, 
the Shia had the highest poverty rates and lived in the most 
underdeveloped rural regions in Lebanon, notably in South Lebanon and 
the Bekaa. Shia marginalization was also institutionalized in Lebanon's 
confessional political system, which favored Maronite Christian as well 
as Sunni Muslim elites. Based on an unwritten agreement of 1943 and 
modified at the end of the civil war in 1990, the system distributes 
political posts by sect. The arrangement reserves the more powerful 
positions of President and Prime Minister for a Maronite and Sunni, 
respectively, while allocating the relatively weak post of Speaker of 
the Parliament to a Shia. Since 1990, all government posts are split 
evenly between Christians and Muslims, despite the fact that Christians 
constitute at most about 40 percent of the population and have lower 
birth rates and higher emigration rates than Sunnis and, especially, 
the Shia. Although a census has not been held since 1932, it is well 
know that the Shia became the single largest confessional group in 
Lebanon in the 1980s and remain so today. As a result of these 
political and economic realities, the Shia have not had influence in 
domestic politics commensurate to their size.
    Until the 1970s, a wealthy elite dominated political representation 
of the Shia and generally neglected the interests of the majority of 
the community. The Imam Musa Al-Sadr, a charismatic Shia leader 
dedicated to the advancement of the community, established numerous 
institutions to promote the socioeconomic development of the Shia as 
part of his ``Movement of the Deprived,'' which was initiated in 1974. 
The following year, al-Sadr's organization established a military wing, 
Amal, headed by Nabih Berri.\2\ By the late 1970s and early 1980s, the 
Amal Movement began to factionalize. The more militant members broke 
off in 1981 under the leadership of the Sayyid Husayn Al-Musawi, who 
founded the Islamic Amal, which was later folded into Hezbollah.
---------------------------------------------------------------------------
    \2\ Berri remains the head of the Shia Amal Movement, which became 
a political party in post-war Lebanon, and has held the post of Speaker 
of the Parliament continuously since 1992.
---------------------------------------------------------------------------
The Iranian Revolution and the Creation of Hezbollah
    The Iranian Revolution was a second impetus for the rise of 
Hezbollah. Many future leaders of Hezbollah and other Shia movements in 
Lebanon carried out their religious training in the same Circles of 
Learning (Hawzat al-`Ilmiyyah) in Najaf, Iraq and later in Qom, Iran. 
Shia clerics from Lebanon, Iran and Iraq studied, met and formed 
networks there. Their experiences in Iran likely influenced them to 
mobilize the Lebanese Shia community and to pursue an Islamic state. In 
the early 1980s, during the civil war, various Shia clerics were 
jockeying for power in Lebanon and Khomeini encouraged them to start a 
movement. Iran therefore sent members of its Revolutionary Guards to 
help with military training and began to send aid to the Lebanese Shia 
community, assisting in the formation of Hezbollah.
The Israeli Invasion as a Catalyst for the Emergence of Hezbollah
    The Israeli invasion of Lebanon, first in 1978 and extended in 
1982, was another key factor in motivating the formation of Hezbollah--
and this is a point on which both Israeli and Hezbollah officials 
agree. From the beginning, Hezbollah presented itself as the leader of 
the Resistance against Israel. The Lebanese civil war, which 
disproportionately affected the population of South Lebanon, 
exacerbated the poor living conditions of the Shia. The Israeli 
invasion, which was concentrated in the South, provided an environment 
that increased the appeal of Hezbollah and especially its military 
operations. Hezbollah claimed credit for the Israeli withdrawal in 
2000, deriving popular support from its role as the vanguard of the 
Resistance.
    The precise origins of Hezbollah are difficult to pinpoint. Various 
individuals and groups, including those linked to the bombings of the 
U.S. Embassy and marine barracks in Lebanon in 1983 and the kidnappings 
of Westerners during the 1980s, are said to be precursors to Hezbollah, 
which did not formally exist at the time. In 1985, Hezbollah officially 
announced its establishment with the publication of its Open Letter. 
The document outlined its philosophy of ``oppression,'' called for the 
established of an Islamic state in Lebanon modeled after Iran's Islamic 
Republic, declared its opposition to the state of Israel, and detailed 
other aspects of its ideological orientation.
    Throughout the civil war, Hezbollah focused its activities outside 
of formal state structures. Its main priority was the military struggle 
against Israel. In the domestic arena, Hezbollah largely stayed out of 
sectarian battles, engaging only in armed clashes with competitors in 
the South and southern suburbs of Beirut, notably the Shia Amal 
Movement and various Leftist groups. During the war, Hezbollah also ran 
some social programs, especially health programs, which catered largely 
although not exclusively to the families of fighters ``martyred'' or 
wounded in fighting against Israel.
    the evolution of hezbollah in the post-war period (1990-present)
    From 1989 to 1992, Hezbollah initiated its transition from a 
predominantly militant movement to greater participation in the formal 
institutions of the state. Three different wings of the organization 
were established or further consolidated in the post-war period, 
including the institutions of it military wing as well as those of its 
political party and social welfare programs.
Hezbollah as a Militant Group
    Hezbollah is best known in the West as a militant organization. In 
the post-war period, it has retained and honed its military 
capabilities at the same time that it increased its participation in 
mainstream, non-violent politics in Lebanon.
    In its capacity as an armed movement, Hezbollah concentrates its 
violent acts and rhetoric on Israel. It continues to present itself as 
the vanguard of the Resistance in Lebanon as well as a defender of the 
Palestinians against Israeli occupation. Hezbollah maintains a 
perpetual state of war against Israel and engages in periodic cross-
border skirmishes with Israeli forces, most famously in recent years 
with the capture of two Israeli soldiers and killing of several others 
on July 12, 2006, which sparked the 2006 Israeli-Lebanese conflict.
    Hezbollah has largely avoided the use of violence within Lebanon. 
An important exception occurred in May 2008, when street clashes 
erupted between Hezbollah and its allies, on the one hand, and groups 
associated with the predominantly Sunni and pro-West Future Movement 
and its allies, on the other hand. The decision of Hezbollah to turn 
its weapons ``inward'' hurt the credibility of the organization among 
many Lebanese.
    Hezbollah is especially keen to differentiate itself from Sunni 
terrorist groups such as al-Qaeda. Major differences, both doctrinal 
and strategic, separate the two groups. Al-Qaeda and other Sunni 
extremist organizations view Shia Muslims as traitors to Islam. 
Furthermore, while Hezbollah has become a mainstream political party in 
the domestic arena, al-Qaeda is a global organization primarily aimed 
at perpetrating terrorist acts rather than developing ties with local 
populations. Notwithstanding Hezbollah's militant wing, it would 
therefore be a mistake to put it in the same category as al-Qaeda and 
related groups.
Hezbollah as a Political Party
    With the end of the civil war, the Hezbollah leadership made the 
strategic decision to participate in the formal political system. In 
the early 1990s, the organization denounced its stated goal of pursuing 
the establishment of an Islamic state in Lebanon and opted to field 
candidates in all post-war elections, including the parliamentary 
elections of 1992, 1996, 2000, 2005, and 2009 as well as municipal 
elections held in 1998, 2004, and 2010. Since 1992, Hezbollah has held 
seats in parliament and in 2000 its national representation exceeded 
that of the Amal Movement for the first time. In 2005, Hezbollah 
finally agreed to accept cabinet-level positions, despite the fact that 
its prior electoral successes had qualified it to hold ministerial 
posts in the past. By participating in the executive branch of 
government, the party could no longer depict itself as an opposition 
faction within the parliament.
    Participation in formal political institutions provides incentives 
for parties to woo supporters from beyond their own religious 
communities and hard-core supporters. The Lebanese electoral system 
reserves seats for representatives from different sectarian communities 
at the district level, but voters from all religious backgrounds vote 
for all candidates, irrespective of religious affiliation. This 
arrangement also encourages parties to forge cross-sectarian alliances 
in order to sweep the ballot. Thus, Hezbollah--and other parties--have 
formed alliances, often but not always of convenience. A 2006 accord 
with Michel Aoun, head of the Christian Free Patriotic Movement (FPM), 
established an alliance between Hezbollah and the FPM that endures to 
this day. Since 2000, Hezbollah has also run joint lists with the Amal 
Movement, thereby undercutting real competition between the two parties 
in national elections.
    Hezbollah has had a strong showing in elections both at the local 
and national levels, although its coalition--the March 8th Alliance--
did not win the majority of seats in the 2009 parliamentary elections. 
A variety of factors likely contribute to its success. First, Hezbollah 
derived substantial credibility from its role in compelling the Israeli 
withdrawal in 2000, although as time passes this source of support is 
declining. Second, the party has proved exceptionally adept at 
grassroots outreach, enabling it to forge strong linkages between its 
cadres and citizens. Its extensive and well-managed networks of social 
programs partially explain its popular appeal Hezbollah's social 
welfare activities both enable the party to establish direct ties with 
the population in the areas where they operate and to bolster its 
reputation for good governance and relative lack of corruption. Even 
Hezbollah's harshest critics concede that the organization runs well-
managed and high-quality programs in the spheres of health, education, 
and other social sectors.
    In the post-war period, and especially since the assassination of 
former Prime Minister Rafiq al-Hariri, Hezbollah has expanded its 
repertoire of political mobilization strategies to include classic non-
violent forms of participation such as demonstrations and sit-ins. In 
December 2006, Hezbollah and its allies in the March 8th coalition 
withdrew their representatives from the national government and 
initiated a sit-in by their supporters, who camped out for 17 months in 
downtown Beirut. Officially, the March 8th leadership launched these 
protested to call for more posts in the government--specifically, one-
third of cabinet positions, which would give the coalition veto power. 
Hezbollah's opposition to the Special Tribunal for Lebanon (STL), which 
was established to investigate the assassination of Hariri, was a key 
factor behind the opposition's withdrawal from the government. The Doha 
Agreement, brokered by the Qatari government, ended the standoff after 
violent clashes erupted in May 2008 between the March 14th and March 
8th coalitions.
    The STL continues to destabilize Lebanese politics, with Hezbollah 
declaring its firm opposition to the proceedings and attempting to 
undermine the investigation's credibility, particularly after 
prosecutors announced the indictments of four Hezbollah members. The 
issue of the STL was an important motivation for the decision by 
Hezbollah and its allies to force the breakdown of the government of 
Saad al-Hariri, the son of Rafic Hariri, in January 2011. The decision 
of the Druze political leader, Walid Jumblatt, to defect from the March 
14th coalition enabled Hezbollah and its allies to orchestrate the 
breakdown of the Hariri government, thereby enabling the March 8th 
coalition to become the majority in parliament. In January 2011, Najib 
al-Miqati was nominated as the new Prime Minister and, after a delay of 
almost 6 months, he constituted a government.
    Political developments since 2005 demonstrate that Hezbollah 
remains heavily invested in formal state institutions and resorts to a 
wide range of political to pursue its interests in domestic politics. 
The adoption of extra-electoral forms of political participation such 
as mass demonstrations and sit-ins is by no means unique to Hezbollah. 
Observers of Lebanese politics, however, are increasingly concerned 
about Hezbollah's stance on the STL and its implications for stability 
in the country. To block cooperation with the STL, Hezbollah has tried 
to question its legality, overturned sitting governments, and issue 
veiled threats to block the proceedings of the court at all costs.
Hezbollah as Social Welfare Provider
    The Social Unit of Hezbollah is charged with providing social 
services and technical help to members, supporters, families of 
``martyrs'' and others. The social wing of the organization 
incorporates multiple welfare programs. These include its construction 
wing (Jihad al-Bina') which helps people construct and rehabilitate 
homes, supplies water and electricity to parts of Lebanon, and runs 
schools, shops, hospitals, clinics, mosques, cultural and social 
centers, and agricultural cooperatives. The Islamic Health 
Organizations runs a network of hospitals, clinics, and dispensaries 
throughout the South, Bekaa and southern suburbs of Beirut. Hezbollah 
also runs several networks of schools, a microcredit agency, and a 
program to assist the poor and orphans, the Imam Khomeini Support 
Committee (Lajnat Imdad al-Khomeini), which is modeled after an 
institution in Iran.
    Hezbollah's social programs largely benefit Shia Muslims, mainly 
because it locates its social welfare activities in predominantly Shia 
neighborhoods and villages. Furthermore, its most generous programs are 
reserved for its core members and particularly the families of militia 
fighters and those who have been wounded in clashes with Israel. 
Nonetheless, basic Hezbollah services are accessible to all who seek 
them, Shia and non-Shia alike.
    The provision of social welfare is not unique to Hezbollah. All 
major sectarian political parties in Lebanon provide welfare, either 
directly through their own facilities or by brokering access to 
services supplied by the government or private providers. What appears 
to distinguish Hezbollah from many other parties who offer social 
services is the professionalism and quality of its welfare programs.
Hezbollah's Funding Sources
    Hezbollah's militant and non-militant operations undoubtedly 
require a large budget. Obtaining reliable information on the 
organization's finances and funding sources is notoriously difficult, 
if not impossible.
    Hezbollah officials emphasize the importance of charitable 
donations and taxes, including the obligatory Shia religious taxes of 
zakat and khums, which allegedly account for one-half of the operating 
budget of the organization's welfare programs.\3\ They also point to 
donations from wealthy businesspeople and investments in private 
ventures. Hezbollah representatives are more reticent about the role of 
Iranian funds. Estimates of Iran's contributions range from $25-50 
million \4\ to $100-200 million,\5\ although some claim that Iranian 
financial support has steadily declined.\6\ Reduced support from Iran 
suggests a possible motive for seeking alternative, sometimes illicit 
sources of financing such as the activities that Hezbollah allegedly 
carries out in the TBA. A 2004 estimate alleged that Hezbollah's 
operations in the TBA generate about $10 million annually for the 
organization.\7\ The Anti-Defamation League claims that Hezbollah's 
total operating budget ranges from $200-500 million.\8\ Given the 
speculative nature of these estimates and their obscure sources, these 
figures are impossible to verify.
---------------------------------------------------------------------------
    \3\ Mona Harb. Le Hezbollah a Beirut (1985-2005): De la Banlieue a 
la Ville (Paris: IFPO-Karthala, 2010), p. 94.
    \4\ Anthony Cordesman, ``Iran's Support of the Hezbollah in 
Lebanon.'' (Washington, DC: Center for Strategic and International 
Studies, July 15, 2006), p. 3.
    \5\ Matthew Levitt. ``Hezbollah Finances: Funding the Party of 
God.'' In Jeanne K. Giraldo and Harold A. Trinkunas, eds. Terrorist 
Financing and State Responses: A Comparative Perspective (Stanford: 
Stanford University Press, 2007), pp. 131-151.
    \6\ See Abbott, op. cit. and Ahmed Nizar Hamzeh. In the Path of 
Hizbullah (Syracuse, NY: Syracuse University Press, 2004), p. 63.
    \7\ Julio A. Cirnio, Silvana L. Elizondo, & Geoffrey Wawro. ``Latin 
American Security Challenges: A Collaborative Inquiry from North and 
South.'' In Paul D. Taylor, ed., Latin America's Lawless Areas and 
Failed States: An Analysis of the New Threats (Newport, RI: Naval War 
College Press, 2004), p. 24.
    \8\ Anti-Defamation League. ``Hezbollah's International Reach'' 
(December 7, 2004). Available at http://www.adl.org/terror/
hezbollah_print.asp.
---------------------------------------------------------------------------
Is Hezbollah Likely to Target the United States?
    Hezbollah is a militant organization because it employs violence, 
but its acts of violence are almost exclusively directed at Israel in 
what the organization and many Lebanese view as a protracted war. At 
present, however, there is no indication that Hezbollah aims to target 
the U.S. militarily. Although Hezbollah condemns the United States for 
its alliance with Israel and Middle East policy, it has not targeted 
the United States or U.S. interests with violence since the 1980s.
    The reaction of Hezbollah to strong U.S. support for Israel during 
the 2006 Israeli-Lebanese conflict provides insight into Hezbollah's 
stance vis-a-vis the United States in the current period. During the 
war, the United States unequivocally backed Israel's right to defend 
itself from Hezbollah attacks and even provided military support to 
Israel while the conflict played out. The United States also rejected 
calls for a ceasefire in the first part of the war, claiming that a 
ceasefire agreement should not be brokered until certain conditions 
were met. In addition, the United States unilaterally opposed a U.N. 
Security Council proposal for an immediate ceasefire between Israel and 
Lebanon while the U.S. Congress passed resolutions that condemned 
Hezbollah and its state sponsors for provoking the war and underscored 
Israel's right to self-defense.\9\
---------------------------------------------------------------------------
    \9\ U.S. Senate Resolution 534 (July 18, 2006) and U.S. House of 
Representatives Resolution 921 (July 20, 2006).
---------------------------------------------------------------------------
    During the 2006 war, many Lebanese citizens--including those who do 
not support Hezbollah--interpreted these official U.S. statements as 
favoritism of Israel at the expense of Lebanese lives and 
infrastructure. Hezbollah condemned the U.S. position during the war 
and Hassan Nasrallah, the leader of Hezbollah, stepped up the anti-
American rhetoric in his speeches. In addition, during and after the 
war, Hezbollah and its supporters spray painted ``Made in the U.S.A.'' 
on the debris of Israeli bombs as a symbolic means of highlighting what 
they viewed as U.S. complicity in Israeli attacks on Lebanon. Despite 
this strong anti-American stance and propaganda, however, Hezbollah did 
not promote the targeting of U.S. interests whether within the region 
or elsewhere. Since 2006, the organization has remained strongly 
critical of American policy towards the Middle East but has not 
indicated its desire to target U.S. interests with military operations.
    Hezbollah's disinterest in targeting the U.S. militarily stems from 
its political evolution in the post-war period as well as tactical 
calculations. As detailed above, Hezbollah is increasingly vested in 
Lebanese politics and has become a major party in the domestic 
political scene. This strategic orientation requires compromise and 
pragmatism, limiting the organization's propensity to deploy violence 
to pursue its goals. Furthermore, Hezbollah is now a far more complex 
organization than it was in the 1980s. It encompasses multiple 
interests, both within its separate organizational bodies and within 
its domestic constituencies. It would be a mistake to view its 
military, political, and social wings as one seamless operation geared 
exclusively towards violent struggle. Indeed, credible sources claim 
that Hezbollah has experienced internal debates about the relative 
weights of its political and social programs versus its militant 
activities, particularly since the 2006 war with Israel. Hezbollah is a 
highly disciplined organization that does not expose internal 
dissension, but such factional differences are entirely plausible and, 
indeed, are common in any political organization, whether violent or 
non-violent.
    Tactically, a full-scale military conflict with the United States 
would inevitably lead to big losses and would shift Hezbollah's 
priorities beyond its main military focus, notably its struggle against 
Israel. Furthermore, there is no evidence that Hezbollah aims to launch 
global terrorist operations, as carried out by Sunni extremist groups 
such as al-Qaeda. To the contrary, the organization has explicitly and 
repeatedly condemned the indiscriminate, large-scale acts of violence 
perpetrated by Sunni extremists.
    With respect the TBA, the proposition that Hezbollah intends to 
launch terrorist acts against the United States from the region are not 
based on conclusive evidence. Latin America is home to many Lebanese 
Shia migrants, but they have diverse religious and political 
orientations. Sympathy for Hezbollah as the leader of Resistance as 
well as the paying of religious taxes to Shia clerics, even those 
linked to Hezbollah, are not commensurate to support for or 
participation in terrorist acts. As detailed above, Hezbollah is a 
multi-faceted organization that garners popular support for diverse 
reasons. Many Lebanese--including opponents of Hezbollah and non-Shia 
Lebanese--view the organization's on-going conflict with Israel as 
justified in the context of a protracted war.
                               conclusion
    Analysts have made two main overarching claims about the security 
implications of Hezbollah's activities in Latin America and, 
specifically, in the TBA: First, the region provides a space where 
Hezbollah (and other groups) conduct illicit activities that are 
central to their fundraising operations. Second, the region offers a 
geographic platform in the Americas from which Hezbollah and other 
groups can launch terrorist operations against the United States, among 
other Western targets.
    Regarding the first claim, I do not have sufficient independent 
information to confirm or deny the nature or extent of Hezbollah's 
activities in the TBA. The information cited in published sources on 
Hezbollah's budget structure, including the funds it allegedly derives 
from illicit activities in the TBA, is largely speculative.
    On the second claim, the notion that Hezbollah intends to launch 
terrorist operations against U.S. interests, particularly in the 
Western Hemisphere, seems implausible at this juncture. Since the 
1980s, Hezbollah has evolved into a mainstream actor in Lebanese 
politics and has opted to participate in the formal institutions of the 
state. As a result, the party has become more pragmatic and far more 
willing to make compromises than in the past. Hezbollah remains 
committed to its struggle against Israel, but confrontation with the 
United States is a much riskier venture and is well beyond the scope of 
its domestic and regional priorities.

    Mr. Meehan. Thank you, Dr. Cammett.
    Thank you, each of the panelists, for your very, I would 
say, not only engaging, but eye-opening testimony.
    I will recognize myself for 5 minutes of questioning.
    At the outset, I think what was important was that, almost 
across the board, each person identified this as not only an 
important issue for us to be looking at, but an issue that 
isn't appreciated enough, that we aren't doing enough 
observation on. So I am hopeful that this can be a platform for 
us, if appropriate, to continue to do that kind of analysis.
    But I am also struck by this line in which we look at what 
is already, by each person's testimony, a very sophisticated 
criminal enterprise. In my experience as a prosecutor, the 
concern about the sort of narco trail that would be guns and 
drugs and trafficking and other things that would reach right 
into American cities. But I am concerned about where and how 
you draw the line between what is a criminal enterprise and 
what becomes a terroristic threat, because I am struck by the 
testimony which is talking about training at our borders, the 
Mexican border, of individuals on explosives in some of your 
testimony; training on tunneling like we are seeing in Lebanon.
    So where is the line? I think it was engaged in the 
``tragedy of asymmetric warfare on our doorstep'' was the words 
I think either Mr. Farah or Ambassador--Mr. Farah, you used. So 
are we dealing with a narco organization, or do we have a 
legitimate terroristic threat at our doorstep? I would like to 
ask each of you to just give me your observation on that.
    Mr. Noriega. Mr. Chairman, let me just give you my thoughts 
on this. It is important to note that their cooperation with 
other criminal organizations, drug-trafficking organizations, 
and providing operational capacity training, explosives 
training, and that sort of thing does represent a threat not 
only to our neighbors in the region that are fighting the drug-
trafficking organizations, but the American people who bear the 
brunt of this narcotrafficking.
    Let me just add in response to something Dr. Cammett said, 
that a month ago the Iranian Defense Minister was in Bolivia 
and said that he was there to inaugurate an academy on 
asymmetrical warfare, basically militia training in Bolivia. He 
declared that their purposes was to be prepared to respond to 
any threat from the United States.
    So what the evidence that we have is that this initiative 
to push into Latin America began in 2005. So it is a rather new 
initiative; and also that they have made common cause with 
Sunnis in the region and with drug-trafficking organizations in 
this region. So it is a new approach that Hezbollah is using, 
and it does pose a threat to us.
    Mr. Meehan. Mr. Farah, you talked about that asymmetric, 
what seems to be an expansion. Can you articulate what you 
think that needs and how that moves beyond the very important 
narco issue? But it seems to be an expansion of a threat.
    Mr. Farah. Well, there is a firm belief, if you read the 
literature, including this book and what Carlos the Jackal has 
written, that the United States can be defeated, and that 
weapons of mass destruction are now valid tools for achieving 
that end, and that they can't confront the United States 
militarily. This--what I think is truly different about the 
situation now is that you have criminalizing states such as 
Venezuela where you have senior leadership deeply involved in 
drug trafficking, and Bolivia where you have senior leadership 
deeply involved in drug trafficking, and franchising out other 
elements to terrorist organizations like the FARC and Hezbollah 
as instruments of statecraft. I think that's what you see, and 
it is significantly different in the region now than it was 5 
years ago.
    They understand, I think, that they cannot attack the 
United States frontally militarily since they don't have the 
capacity to do that. But they are firm believers in leveraging 
the powers that they do have and what they do have access to.
    Again, they explicitly discuss at great length WMD. It is 
not a passing reference. In fact, this book describes in great 
detail how to build WMD and how to go on the internet and get 
it if you want it, which is not unique. But it is interesting 
because it has been adopted as official Venezuelan military 
doctrine, and President Chavez had this book printed up in a 
pocket-sized edition and distributed to an officer corps to 
read and study as part of their curriculum. It takes it to a 
different level, the belief that this is not only necessary, 
not only possible, but necessary. I think that is what is 
different now.
    Mr. Meehan. Mr. Berman and Dr. Cammett, do you have a quick 
observation on this point?
    Mr. Berman. Well, a couple of seconds, if I may. I think--
when you asked the question about whether or not Hezbollah is a 
criminal enterprise or a terrorist organization, I think if you 
look at the history, the answer is both. Hezbollah during the 
1980s got its seed money from narcotrafficking activity in 
Lebanon's Bekaa Valley. So the earliest appearance of Hezbollah 
in the Tri-Border region, for example, was marked by 
narcotrafficking activities. This is what the organization 
knows. It is also where a lot of its revenue comes from.
    So it is very hard to make that seamless transition to 
compartmentalize them as one or the other. The organization is 
pragmatic. It is pragmatic in its interaction and 
interoperability with Sunni groups such as al-Qaeda, as 
prosecutorial testimony has shown in the past. Similarly here, 
it is pragmatic in its interaction with criminal enterprises 
that further its----
    Mr. Meehan. I accept and don't for a moment question 
Hezbollah as an actor of terrorism, but in their activities 
here on America's doorstep, at what point in time are they 
moving from a group who is benefiting from the ability to 
generate revenue from narcoterrorism, you know, narcotics 
trafficking and other things, and becoming a location for sort 
of a base of destabilization and potential terrorism against 
the United States?
    Mr. Berman. Well, sir, I think that is an excellent 
question. The committee and the subcommittee are in a much 
better position to answer it than I. But I can tell you that 
from the organizations, the law enforcement agencies that have 
been looking at this issue, they tend to address Hezbollah in 
ancillary fashion, as part of the war on drugs, as part of the 
criminal activities, racketeering, smuggling, otherwise, rather 
than address it head-on the fact that these revenue-generating 
enterprises actually provide material gain to an international 
terrorist organization as designated by the State Department.
    Mr. Meehan. Thank you. My time has expired.
    I recognize Ranking Minority Member Speier for questions. 
Thank you.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    Let me just ask at the outset, how many of you, in your 
scholarship, have interviewed officials of Hezbollah? Can we 
just go down the line starting with you, Ambassador?
    Mr. Noriega. As far as I know, I haven't interviewed 
anybody directly involved, although I have--some of the people 
that I worked with directly have had contact with people who 
are aware of Hezbollah's operations. For example, one operative 
in Argentina told us as recently as yesterday that he and other 
terrorist leaders met in Caracas with that triumvirate of 
terrorist leaders in August of 2010. So he had operational 
real-time information about their operations.
    So although I don't meet with their scholars or anything, 
we have met with people that have dealt directly with 
Hezbollah.
    Ms. Speier. Thank you.
    Mr. Farah.
    Mr. Farah. As a journalist I don't know how senior they 
were. I have dealt with Hezbollah on the ground in West Africa 
and also in Latin America. I don't know with any sense of 
reality where they fit in the hierarchy.
    Ms. Speier. Thank you.
    Mr. Berman.
    Mr. Berman. Ms. Speier, I have not. However, in my written 
remarks you will see there it references extensively FBI and 
DEA testimony from agents that have. So I will use those as 
secondary sources.
    Ms. Speier. All right.
    Dr. Cammett.
    Ms. Cammett. Yes, I have, in the course of researching a 
book that I am currently completing on Hezbollah's social 
welfare activities. I have interviewed a number of people from 
some of their social programs, and I have interacted with the 
media and public relations office where you have to go to 
obtain clearance in order to meet with officials from the 
organization.
    Ms. Speier. So Dr. Cammett has made a fairly bold statement 
that suggests that Hezbollah is not a threat to the United 
States at this time. Is that a fair----
    Ms. Cammett. From the evidence that I have seen, I do not 
conclude that, at this particular moment, Hezbollah is 
interested in targeting the U.S. militarily.
    Ms. Speier. All right. Can I have comments from each of you 
as to whether or not you agree with that?
    Mr. Noriega. Well, I think this is something that is very, 
very important, because you have had within recent weeks State 
Department officials telling this Congress that the only 
activities that Hezbollah has in this hemisphere is fund-
raising, as if that were to come as some sort of comfort to us 
that all they are doing is raising money to attack our 
interests.
    But I believe that, based on the information that we have, 
that these operatives are training, that they are training 
others who represent a physical threat to the United States and 
our interests. So, frankly, I believe that the fund-raising is 
only part of it; but that they are seeking an operational 
capacity to be prepared to attack our interests when it 
becomes--when they make the calculation that it is in their 
interest to do so.
    Ms. Speier. Thank you. I am going to have to ask you to 
complete your comments because I have got one more question I 
am going to try to sneak in.
    Mr. Farah and Mr. Berman, if you could.
    Mr. Farah. I would agree that what I think they are doing 
is positioning themselves across the region to be able to 
inflict great harm if Iran is attacked or if Israel attacks 
Iran or we attack Iran on their nuclear program, or, as 
Ambassador Noriega said to you, be positioned for when they 
feel the time is right, if they feel the time is right. I don't 
believe they are in an offensive mode right now to attack us 
just because we are here, but I think they are positioning 
themselves to be able to do that if they view it as necessary.
    Ms. Speier. Thank you.
    Mr. Berman.
    Mr. Berman. I will try to be quick. I agree with Mr. Farah. 
I think what you see now is a rather elaborate fund-raising 
logistical web. But the web right now is being harnessed to 
generate revenue for the organization. But the web could easily 
be used to project an operational capability, as Ambassador 
Noriega talked about.
    Ms. Speier. All right. One last question, if I can get this 
in in a minute. We have spent a fair amount of time looking at 
the terrorist organizations in Pakistan, LET, Pakistani Taliban 
and the like, which, to my point of view, is where the greatest 
risk to the United States potentially is right now. If you were 
to evaluate Hezbollah and the Pakistani terrorist 
organizations, how would you rank them?
    Mr. Berman. I will address it very quickly. I think any 
such calculus has to be measured against the ability of the 
organization to actually sustainably project power into the 
U.S. homeland. I think because of the network that Hezbollah 
has built in the Western Hemisphere, Hezbollah has the 
potential to do so. Whether they have the political 
decisionmaking and have made the decision to do so is another 
story entirely, but I think it is better positioned 
logistically to be able to do so if the decision is made.
    Ms. Cammett. I would agree to some degree with that 
statement, because Hezbollah certainly seems to be more spread 
globally. But that is a very different thing from saying it has 
the desire, motivation, tactical decision to actually launch an 
attack. I mean, there is no question that Hezbollah has 
supporters and probably operatives in the United States 
already. I mean, I know in my interviews with the pedagogical 
training center, Hezbollah, they got a lot of their textbooks 
from California, textbooks on physics and mathematics, 
textbooks used in California schools. They said to me quite 
clearly, we have lots of supporters in the United States that 
send us their pedagogical material. So they are clearly well-
implanted here. They probably are much better organized than 
some of these Pakistani organizations in terms of targeting the 
United States, but they are quite a different organization in 
terms of their interests and goals than those Pakistani types 
of organizations.
    Ms. Speier. Thank you. My time has expired.
    Mr. Meehan. Thank you, Ms. Speier.
    I now recognize the gentleman from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you for being here today on this 
important subject, and I would like to dovetail just what you 
said, Doctor, on just--question I had is, do any of you see a 
link between Iran and Hezbollah and the Muslim Brotherhood 
organizations here in the United States, such as CAIR or ISNA?
    Ms. Cammett. Not to my knowledge.
    Mr. Cravaack. I will take it from the left to the right. 
Ambassador?
    Mr. Noriega. It is out of my area to comment specifically 
on that, sir.
    Mr. Cravaack. Mr. Farah.
    Mr. Farah. I spent considerable time looking at Islam and 
the other Muslim Brotherhood legacy groups here, and I did not 
come across an Iranian tie-in to those organizations.
    Mr. Berman. Similar, my expertise does not extend to the 
synergy between those two.
    Ms. Cammett. I have never heard of a linkage, but I can't 
speak authoritatively.
    Mr. Cravaack. Can you possibly expand upon it then both 
with the Muslim Brotherhood, Iran being a Shia and the Muslim 
Brotherhood being Sunni, and each of them independently seeing 
that--wanted to see the destruction of the United States; can 
you see them kind of an independently going on at this point, 
or do you see them joining up forces later on? Mr. Farah.
    Mr. Farah. I think one of the unique things about the 
Brotherhood is its ability to bridge this Sunni/Shia divide. It 
is the only transnational organization that does that, and if 
you listen to the testimony of Youssef Nada, the self-described 
foreign minister of the Muslim Brotherhood, immediately after 
9/11 he went on Al Jazeera 2 hours a night for 5 nights in a 
row, and he described how the Brotherhood accompanied Ayatollah 
Khomeini back. There were three planes that went back. One was 
the ayatollah, one was the security, and one was the Muslim 
Brotherhood.
    So they have been very involved in bridging that, the 
Sunni/Shia divide. So I think that--I don't think they are 
adverse to that. I think one of the--it has been commented on 
the ability to reach out across the Sunnis in Latin America is 
not unusual for the Brotherhood. It is unusual for almost any 
other group of the Pan-Muslim world to be able to do that.
    So if you look at the underlying ideology in the Muslim 
Brotherhood testimony presented in the Holy Land case, the 
desire to hoist the United States on its own petard, et cetera, 
et cetera, it is consistent with different strains of radical 
Islamic thought about the United States, whether they would be 
operationalizing in the United States.
    I would add one small thing, and that is that if you look 
at where the Muslim Brotherhood established its financial 
capacity and housed its money, it was in this hemisphere. It 
wasn't elsewhere. We had the Bahamas. We had the different 
banks in the Bahamas, Bank Al Taqwa particularly, and you have 
multiple offshore companies I investigated 2004-2005 where all 
of the major Brotherhood leaders had significant offshore and 
shell companies established in Panama. So they clearly are 
familiar with this hemisphere and like to use it at least for 
financial reasons.
    Mr. Cravaack. Okay. Thank you.
    Ambassador Noriega, given Chavez's regime's involvement and 
support for the FARC and the FARC-Hezbollah connection, how do 
you recommend the United States move forward in our foreign 
policy towards Venezuela?
    Mr. Noriega. I think we took some positive steps by 
sanctioning PDVSA, the state-run oil company of Venezuela, for 
its support for Iran for providing gasoline in violation of 
U.S. law to Iran. I know that there is a debate between 
designating Venezuela as a terrorist state. I prefer, since 
that is a decision that the Secretary of State or the President 
would have to make, I think it is better enable and encourage 
law enforcement to go after in a tactical way those 
institutions, individuals that support, to provide logistical 
financial support for terrorism.
    For example, Conviasa, the Venezuela airline, has regular 
service from Caracas to Tehran and Damascus, and it is not the 
only persons that they carry, but they do ferry operatives, 
recruits, and cargo to and from.
    Mr. Cravaack. Doesn't Venezuela shield that from Interpol; 
is that correct?
    Mr. Noriega. Pardon me?
    Mr. Cravaack. Doesn't Venezuela shield the passengers on 
that aircraft?
    Mr. Noriega. It is my understanding the passenger manifests 
are generally reserved, and there are people that do not pass 
normal immigration when they come and go, and cargo doesn't go 
through Customs.
    Again, this is one final point. Just 2 weeks ago, a State 
Department official said that that flight wasn't going anymore. 
Well, that is because Venezuelans did a press release and said 
it isn't going anymore. We have to do better than reading press 
releases from Caracas. In point of fact, my sources say that 
that flight goes every Saturday from Caracas to Tehran.
    Mr. Cravaack. Just one more question real quick. Mr. Farah. 
You piqued my interest when you said--I just want to make sure 
I understood it correctly. Given means and opportunity to use 
weapons of mass destruction, do you believe Hezbollah would use 
them here in the United States?
    Mr. Farah. I think if they viewed that in their interest, 
particularly in Iran's interest, that they are positioning 
themselves--I believe it is primarily a defensive positioning. 
I don't believe it is an offensive intention without what they 
would view as provocation, but I think that if you read their 
literature and listen to what they say--and they say it 
extensively, particularly in Venezuela with Iran--that they 
view that as their right and moral imperative to destroy the 
United States, and the weapons of mass destruction are a way 
for them to do that, yes.
    Mr. Cravaack. Thank you, Mr. Chairman, for yielding. I 
yield back.
    Mr. Meehan. Thank you, Mr. Cravaack.
    The Chairman now recognizes Mr. Higgins from New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    Hezbollah in Arabic is the Party of God. It is a Shia group 
that is committed to violent jihad. It acts as a proxy for 
Syria, for Iran, for Venezuela. It is involved in 
radicalization efforts in Mexico and along the United States 
southern border. It has infiltrated the Western Hemisphere, but 
more directly it has infiltrated the United States with a 
presence in 15 cities, as has been said here, and also 4 major 
cities in Canada, including Toronto because of its close 
proximity to the United States.
    If Hezbollah is not targeting the United States, what are 
they doing here? Those efforts aren't moving away from our 
region. It is estimated, I think, Dr. Noriega, in your 
testimony that there are some 80 Hezbollah operatives in the 
12-region area of Latin America.
    My thought is we should also have a representative from the 
Department of Homeland Security here because my sense is that a 
presence that is pervasive and growing is a very serious threat 
that needs to be addressed. I would ask all of you to comment 
on that.
    Then a final question. There is a book by Gretchen Peters 
called Seeds of Terror, and it is an analysis of violent jihad 
and the connection between narcotrafficking, and she estimates 
that in Afghanistan, which heroin is about 60 percent of the 
entire economy, the Taliban receives about a half a billion 
dollars a year in the heroin trade. It is not that they own the 
fields, but they preside over it. They charge protection, and I 
would be curious to know--most of the heroin that comes in the 
United States now comes from Latin America. So I would like to 
know the extent to which Hezbollah is funded by heroin 
trafficking and how extensive that threat is. So any of you 
that want to take that, I appreciate your comments.
    Mr. Noriega. Very quickly, sir. When we talk about 
asymmetrical warfare, I would submit that supporting drug 
trafficking is a form of asymmetrical warfare against the 
United States. I am aware of Hezbollah being involved, 
according to drug kingpins themselves, in cocaine-smuggling 
operations in Venezuela with the support of the Venezuelan 
Government there, by the way.
    One final note in terms of going after this threat. Again, 
I am aware of law enforcement inquiries into individuals and 
particular forms of financing that Hezbollah uses in Venezuela, 
and with the support and encouragement of this committee, I can 
see these law enforcement agencies going forward and knocking 
the blocks out from under Hezbollah's ability to generate that 
kind of revenue here in our hemisphere.
    Mr. Farah. I think that if you look at the FARC and 
Hezbollah and the Taliban, you see the criminalization of 
terrorist groups, without a doubt. What are they doing here? I 
think that that is what we need to spend a lot more time 
thinking about, because I think that if you look at Hezbollah 
and you look at Iran and you look at Venezuela, none of them 
have excessive cash right now. They are all being squeezed, and 
yet they are choosing to spend significant resources on placing 
themselves in this hemisphere. It seems to me to indicate it is 
very important to them.
    What is it? As I said before, I think it is largely a 
defensive positioning at this point to be able to strike hard 
if they feel that they are either under attack or about to be 
attacked.
    I think Gretchen's book is very good. I think it is sort of 
a very significant object lesson of how these groups evolved, 
and I think what you see in Latin America now with the 
Hezbollah and FARC becoming closer and closer is you see the 
ability to exchange information technologies, trafficking 
routes, and access to specific resources, Hezbollah with 
weapons and the FARC with drugs, that bodes very ill for the 
region.
    Mr. Higgins. Let me just--to me, that is very disturbing. 
You say that they have a presence in the United States and 
North America generally so as to have leverage, to be 
positioned that if they are attacked, they can attack. You 
know, it is almost like we are waiting--to suggest that they 
don't--that Hezbollah does not pose a threat, a direct threat, 
to the United States, I think, is inconsistent in a very 
compelling way with the facts as they are presented here. You 
don't infiltrate an area, you know, unless you have an intent, 
and the intent, you know, clearly is it is not benevolent. We 
know that. We know that.
    Ms. Cammett. I think there is a number of reasons why they 
might have a presence here. I mean, for one thing, I am sure 
there is similarly ordinary citizens of Lebanese descent who 
are sympathetic to the organization. I don't know if that 
amounts to a presence, but I mean, fund-raising is an important 
reason in and of itself, forget military operations. Now, fund-
raising I am not trying to say is a good thing, you know, the 
kinds of activities are not, you know--not to be condoned 
necessarily, but that is distinct in a number of ways from 
launching violent activities in part because fund-raising is 
going to multiple dimensions.
    Mr. Higgins. I understand that, but it is an organization 
that is committed to violent activities. So is the fund-
raising--the presence is intended in some way, directly or 
indirectly, to engage in violent activities.
    Ms. Cammett. Against the United States or against other 
governments?
    Mr. Higgins. They are here. They are here, in Canada in a 
major city in close proximity to the United States and western 
New York.
    Ms. Cammett. Right, but it is not clear to me that there is 
evidence that they are targeting the United States with that. 
That doesn't mean----
    Mr. Higgins. Pretty clear to me of what their intent is, 
whether it is immediate or longer-term, and that is a profound 
concern. It should be to everybody here, including, you know, 
the United States Government, Department of Homeland Security.
    Mr. Meehan. Thank you, Mr. Higgins.
    The Chairman now recognizes the gentleman from South 
Carolina Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and thank you for 
having this meeting.
    On this committee we have talked about the issue of the 
Mexican border and southern border, the Tri-Border region in 
South America many times, and according to DHS, between 2007 
and 2010, 180,000 people, 180,000 people, have been captured 
that are other than Mexicans at the southern border.
    In July of last year, we had the first IED explode in this 
hemisphere just south of the Mexican border. In 2005, Mahmoud 
Youssef Kourani crossed the border from Mexico into California 
traveling to Dearborn, Michigan, where he was later sentenced 
to 4\1/2\ years in prison for conspiring to raise money for 
Hezbollah. So out of the 180,000 people that came into this 
country, how many were the Mahmoud Youssef Kourani-type folks? 
That is a question that I have.
    We see more and more evidence of Hezbollah being involved, 
I think, with the Mexican drug cartel with extensive tunneling. 
They have an expertise in that area, as you have heard from 
other questions.
    So, Mr. Farah, in your written testimony you said that 
there is growing concern that Hezbollah is providing technology 
for the increasingly sophisticated narcotunnels now being found 
along the U.S.-Mexican border, which strongly represent and 
resemble the types that are being used by Hezbollah in Lebanon. 
Can you elaborate on that conclusion, and can you speak to 
whether or not it is possible for Hezbollah to exploit these 
drug tunnels and the human smuggling routes that the Mexican 
drug cartels and networks use to attack the United States of 
America?
    Mr. Farah. I think there are several issues in that 
question. One is I think if you look at the pipeline, the 
transcriminal pipelines that cross from North and South America 
through Central America to Mexico and the United States, their 
delivery rate is better than UPS. They can deliver--if you put 
either 30 illegal Chinese or 30 AK-47s or 30 kilos of cocaine, 
they are going to cross through the same basic checkpoints, 
cross the same terrain until they cross the border, which they 
do thousands of times a day. So is that possible? Absolutely.
    But I think the other issue that you have to consider is 
that with the state alliances that they have, there is a less 
need--I think there might be operational need to push people 
across the border and through coyotes and that type of thing. I 
think that it is more likely now, because they can obtain 
diplomatic passports from Bolivia, Nicaragua, Venezuela, 
Ecuador without any difficulty whatsoever. You would rather fly 
across and land in a country and walk through the Customs and 
Immigration with a diplomatic passport than crawl across the 
border.
    I think with the tunnels, the evidence is interesting, but 
not conclusive. I would suggest there is probably a technology 
exchange, one way of one group learning from the other and 
exchanging either cocaine or other products in exchange--or 
knowledge maybe of smuggling use in exchange for the technology 
for tunneling or whatever else they need, because if you look 
at the history of the FARC and the drug traffickers 
particularly, I think this holds true for Hezbollah as well, 
they are willing to work across ideological boundaries. They 
are willing to ally themselves in the short term. Instead of--
you know, they don't get married to anyone, but they have a lot 
of one-night stands with different criminal organizations, and 
then everybody walks away happy; or maybe not so happy, but 
they generally walk away unless they are decapitated or 
something.
    But generally you have this ability to cross these lines, 
make short-term alliances and walk away, and it seems to me 
from what I have seen on the tunneling front that this 
technology transfer should concern us because it shows it 
exists and that communication can exist. I doubt it signifies 
an alliance between Hezbollah and anybody else on the ground 
there in an organic sense.
    Mr. Duncan. I realize that the tunnels are mainly used for 
smuggling drugs. That is the most profitable thing. But there 
is a lot of concern within Congress of what could be brought 
into this country through those tunnels and other means.
    Can you speak to the validity of people of Middle Eastern 
descent who may want to do harm to this country coming to South 
America, learning Spanish language, assimilating, and then 
working their way up through Latin America and entering this 
country as tourists or on other diplomatic passports? Can you 
expound on that just a little bit?
    Mr. Farah. I think it happens. I think one of the concerns, 
particularly with Ecuador, is that they lifted all visa 
requirements for everyone, except maybe I think North Korea 
stayed on the list. So essentially what you have, it is like 
water running downhill. You go to the easiest place, which is 
why the Mexican cartels are now flying to Ecuador to buy FARC 
cocaine directly, because they can. There are no visa checks. 
The FARC is on their side of the border, and off they go.
    So I think that the ability to move through Latin America, 
and particularly Central America, easily is there. Whether they 
need to sit around and learn Spanish enough, my sense is that 
that is usually not the case. You can usually just buy your way 
across without having to spend 6 months learning Spanish. Why 
bother? If you really want to go deep undercover, maybe you do 
that.
    But the other thing I would just suggest on the movement of 
product is that the tunnels are of great concern. I think one 
of the other things that plays into that enormously is the 
first immersible craft that the FARC is now able to create with 
Russian technology that you are seeing now that can go from 
Ecuador and Colombia all the way to Mexico and to our shores 
carrying 10 tons of whatever they want, and I think that that 
is something that should make us very nervous as well.
    Mr. Duncan. Thank you.
    I am out of time. I yield back.
    Mr. Meehan. Thank you, Mr. Duncan.
    The Chairman now welcomes and recognizes Ms. Hochul. Ms. 
Hochul.
    Ms. Hochul. Thank you, Mr. Chairman.
    The last comments about this making you very nervous, this 
whole hearing is making me very nervous, as my first committee 
meeting. I commend you for bringing this to the attention of 
the public, Mr. Chairman, and I also concur with my colleague 
from upstate New York's views, where is the Homeland Security 
Department?
    I think a lot of the questions you raise as really an early 
warning system for us. Now my first thought is what is the 
answer, and what is being done about it? I think that is 
perhaps a law enforcement answer. So I hope that there will be, 
and perhaps there already is planned, a follow-up to ask our 
law enforcement community, Nationally and internationally our 
colleagues, what is being done about this, because I am getting 
the sense that we are sitting ducks here, and why are we 
waiting to be attacked first, after the lessons of 9/11, sounds 
like there are a lot of dots to be connected in our own 
hemisphere, and that is extremely troubling to me.
    As a prosecutor, you certainly know, Mr. Chairman, 
prosecutors want to know--in law enforcement you follow the 
money trail. I am sure there is--as we are hearing, there is a 
tremendous amount of money being made in this narcotrafficking. 
Is that money being spent and are the leaders living in lavish 
homes and palaces, or is that being funneled back to the Middle 
East to buy arms to threaten Israel and also perhaps threaten 
us?
    So I wanted to know if there has been any questions raised 
that you are aware of, any evidence where this money, as the 
ill-gotten proceeds from the narcotrafficking--where is the 
money ending up? Is it in banks? Is it in the Middle East? Is 
it being spent here? What is the answer to that question?
    Ms. Cammett. I mean, I think it is clearly part of it, a 
large part of it, is probably going to weapons which are mainly 
directed at Israel at this point in time. It is also directed--
used in the social welfare programs, which are incredibly 
extensive. I mean, there is something like 50 health-related 
institutions, 25 or 30 schools, and this is one of absolutely 
the largest social programs, social networks in Lebanon, 
serving the largest block of Lebanese citizens, or among the 
largest. So these are all incredibly expensive endeavors.
    They also, you know, have a political party wing, but I am 
sure the bulk of the money, if I could just guess, goes to 
weapons and military-related activities, but also to these 
social programs in Lebanon.
    Mr. Berman. Ma'am, in my written remarks, the cases that 
were cited, including the cigarette-smuggling case that the 
Chairman alluded to, I think there is a pretty clear chain of 
evidence that suggests that the bulk of the proceeds from 
smuggling, from fund-raising, whether it is cigarette smuggling 
or racketeering or what have you, end up actually being 
funneled back to the organization in the Middle East rather 
than being spent on the organization's operatives here. I think 
what you see is you see a pretty clear financial conduit that 
enriches the larger organization rather than individual 
members.
    Ms. Hochul. That is even more troubling. I would feel 
better if they were living in mansions as opposed to going back 
and flying--arming themselves to attack Israel perhaps or to 
pose more threats to our allies in the Middle East. So that is 
not the answer I wanted to hear, but I think that is probably 
accurate, and, again, this just raises--my question is, what is 
the law enforcement response to this? Perhaps it is 
satisfactory. I just need to hear it.
    Mr. Farah. In my dealings with the policymakers, there is a 
tendency still to look at--you know, you saw four Hezbollah 
guys in Paraguay, so that is not very interesting; you see 
three guys in Bolivia, that is not very interesting. There is 
still not a great deal of emphasis on stepping back and saying, 
what does all of this tell us? If you have these multiple 
activities, instead of viewing it as 2 guys doing something 
here, and you are not seeing the other 18 guys doing similar 
things across the region, or 200 people, I think that is one of 
our--our country reporting is very narrow. In focusing on the 
country, there is very little integration across country lines 
looking at Hezbollah as a theme as opposed to what is happening 
in that country specifically.
    Ms. Hochul. Can I ask you a question? Who would be the 
responsible party for connecting those international dots, in 
your opinion?
    Mr. Farah. That is above my pay grade, I am afraid. I think 
there are--I think DOD is working on it. I think Treasury is 
working on a robust finance effort that is directed at 
Hezbollah, but not particularly in Latin America. I think it is 
a fragmented effort, and there were some good people working on 
it, but very little cohesion on the Latin America element.
    Mr. Noriega. Ma'am, I think you hit the nail right on the 
head in terms of one of the things we can be doing, and that is 
going after the financing, and there are some credible efforts 
going on within law enforcement out of the Southern District of 
New York, for example, going after narcotraffickers that are 
allied with terrorists; the DEA using special authorities 
through an interagency process to designate institutions as 
supporters of Hezbollah. For example, they did it in the case 
of--I think it is called the Lebanese Canadian Bank, and had 
the effect of collapsing that bank and cutting off that conduit 
of funds.
    The same interagency process is looking--this, again, is 
law enforcement--is looking at other instruments that Hezbollah 
uses in this hemisphere for moving people and moving money, and 
so they are making some progress. It is a serious thing. That 
is at the law enforcement level.
    I believe the policymakers are well behind the curve on 
this, and testimony before this Congress in recent weeks 
suggests that they are absolutely oblivious to this growing 
problem. I don't know whether it is because they don't want to 
confront Chavez or because they don't think Latin America is a 
priority, but this is our hemisphere, and I know they don't 
want to provoke Chavez, but the fact is this is provocative 
what he is doing, and it requires a credible response, and it 
starts with an interagency process that will review the whole 
problem, connect all these thoughts, and then come up with 
effective whole-of-Government response.
    Ms. Hochul. Thank you.
    Thank you, Mr. Chairman.
    Mr. Meehan. The Chairman now recognizes Mr. Cuellar from 
Texas.
    Mr. Cuellar. Thank you very much, Mr. Chairman.
    I want to thank all the witnesses for being here, and it is 
my good friend--Ambassador Noriega, it is always a pleasure 
seeing you again.
    Let me ask you--well, let me start off with this, the basic 
premise. If I was a bad guy, and I wanted to attack the United 
States, I would go to the backyard, which is Mexico, Central 
America, South America. I will start out with that premise 
itself. But let me ask you some facts.
    I think about 2 years ago I had some Members, some of my 
colleagues, that went down to my hometown in Laredo, and right 
in the middle of the press conference, one of them said, you 
know, there are training camps right across the river in 
Mexico, and they got these training camps, terrorist training 
camps. The media then turns to me and asks me, is that correct? 
I said, as far as I know, no. Then they turned to the Homeland 
Security folks that were there. They asked them the same 
question. They said no. Homeland said they had no information 
of terrorist camps in Mexico.
    Do any of you all have any contrary information that I 
might not be aware of?
    Mr. Noriega. If I can jump in, since you mentioned my name, 
sir. Good to see you again.
    The one--several anecdotal bits of information involving 
Mexicans has involved their going to Lebanon and Venezuela for 
training.
    Mr. Cuellar. You say anecdotal. Evidence.
    Mr. Noriega. No. These were I should say specific reports 
citing U.S. law enforcement and intelligence sources.
    Mr. Cuellar. Okay.
    Mr. Noriega. It involved Mexicans and a handful--I don't 
think it is--training camps, I don't have any reasons to 
suggest that, but it involved these people actually leaving 
Mexico for training, for sort of specialized training. I am not 
aware of any sort of--I have never even seen it suggested about 
training camps in Mexico.
    Mr. Cuellar. Any of you all--and thank you, Ambassador. 
Anybody has any information contrary?
    Well, the other thing that is implied also is because--and 
I will be the first one; I mean, we need to defeat the drug 
cartels. It is a serious problem, and I think we know what is 
happening down there. But it has always been implied that 
because of what is happening down there, that you had this 
terrorist coming up there. It is always a possibility, and I 
will be the person to say we have got to watch out for that. 
But of the main terrorists that we have had that have come into 
the United States that have caused damage to us, how many have 
come in through Mexico? Any of you all? Anybody? Okay. All 
right.
    Now, let me change to the third--and oh, let us talk about 
the Tri-Border area, because I have been down to that area, and 
we talked to law enforcement. What is your understanding of the 
presence of United States law enforcement, whether it is DHS or 
Department of State, that are down there to monitor and combat 
that type of activity? Because the way I understand it, you 
have got drugs, you have got everything, and, of course, I am 
worried about the terrorist aspect of it. Are we doing enough 
down there in the Tri area?
    Mr. Farah. I would say, sir, that in my research in the 
region, I think that the Tri-Border area is no longer the 
center of--as big a center or big a concern as it was simply 
because it is so much safer for these groups to operate out of 
Venezuela now under state protection. They can decamp to a 
state where they are wholly protected, and the Brazilians 
sometimes get frisky, and the Paraguayans sometimes reacted 
unpredictably. So if you want stability, you go to where you 
see your state protector and where you can control the 
environment.
    I think that the Tri-Border is a huge contraband center, 
without question, and most of the people, in my experience 
there, who are funneling back to Hezbollah were not organic 
members of Hezbollah. They were the Lebanese diaspora 
community, sympathizing, the family asked them to, they were 
pressured, whatever, and there is a lot of money that flows 
back. But I don't think--you saw some but not a very 
significant organic Hezbollah presence there. I think the 
significant money activity with the Iranian banks that are now 
operating out of Venezuela and Bolivia and Ecuador is much 
safer and much easier to go elsewhere than to hang around 
there.
    Mr. Cuellar. Okay. I go back to--because my time is almost 
over--but I will go back to the basic statement I said that 
involves the bad guy wanting to attack the United States. I 
would really look at the southern part of it. Is there anything 
that our U.S. law enforcement folks should be doing, whether it 
is intelligence or whatever the department might be, that we 
ought to be doing to protect ourselves from activities in our 
own backyards which are south of the United States?
    Mr. Noriega. I would say two things, sir.
    Mr. Cuellar. Yes, sir.
    Mr. Noriega. Building on what Doug said, one of my 
colleague says that Margarita Island in Venezuela makes the 
Tri-Border area look like a kindergarten. We need to get all 
over that phenomenon.
    Final thing is the reports that I saw referencing Mexicans 
actually cited Mexican authorities having arrested them. So it 
is not like Mexico is not an ally of ours in this. Mexico 
apparently is aware and is trying to help on this.
    Mr. Cuellar. I want to thank all of you, and we really 
appreciate what you all do. Thank you.
    Thank you, Mr. Chairman.
    Mr. Meehan. The Chairman now recognizes Mr. Green from 
Texas. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I also thank you for 
the unanimous consent to be a part of this hearing. I thank the 
Ranking Member as well for your help.
    I have had the opportunity to read the charter or perhaps 
the constitution of Hamas. My assumption is that some of you 
have read it is a fair statement. Very little that you have 
said is more frightening than reading the constitution or 
charter.
    Mr. Farah, you mentioned in their own words, in their own 
writings, you can find things that can be quite convincing. Do 
we have a similar document for this organization, for 
Hezbollah? Do we have a similar document, similar to the 
charter that Hamas has published, which is very clear in terms 
of what their intentions are? Is there a similar document?
    Mr. Farah, since you mentioned their writings.
    Mr. Farah. I am not a Hezbollah expert. I would defer to 
those who may have read that. I don't know if--I have not read 
the Hezbollah constitution, if there is one.
    Ms. Cammett. Hezbollah published its open letter in 1985, 
which was its official proclamation of its establishment, and 
then it published another open letter updating that in I 
believe it was 2009 or 2010, quite recently, and so there are 
two documents on record that state its positions. The initial 
one focused on its opposition to Israel and on its ideology. It 
focuses a lot on this notion of what it calls oppression and 
how to overcome oppression, particularly focused on the Shia, 
among other things. But there are at least two documents that 
are publicly available translated into English.
    Mr. Green. To what extent can we find linkage between 
Hezbollah and Hamas? Do you have some specific things that you 
can call to my attention rather quickly?
    Mr. Berman. Well, I think, sir, specifically if you are 
looking for linkages, operational linkages, between the 
organizations, you would have to look at Hezbollah infiltration 
into the Palestinian Territories, specifically into the Gaza 
Strip, where Hezbollah is involved in running universities, 
running charitable organizations as a proxy of Iran, which has 
a rather large presence in the Palestinian Territories. But 
also since the Gaza Strip is under Hamas stewardship, if you 
could call it that, then the organization operates with Hamas' 
acknowledgment, with Hamas' aid and support.
    Mr. Green. Can we find similar linkage between Hezbollah 
and al-Qaeda?
    Mr. Berman. Sir, I think you can, and I think you would be 
hard-pressed to find something over the last couple of years, 
but not because of--there is an absence of evidence, but, 
frankly, because I think we haven't really paid as much 
attention. But if you look back, for example, into the late 
1990s into the trial of Ali Mohamed, who was an Egyptian 
military officer, he talked--he was an al-Qaeda operative. He 
talked about receiving training in improvised explosive devices 
in suicide bombings from Hezbollah operatives as well.
    You also see interoperability between the way Hezbollah 
operatives and al-Qaeda operatives move around in Latin 
America, which has been cited by the Congressional Research 
Service and the Library of Congress.
    Ms. Cammett. I would say that the relationship between 
Hezbollah and al-Qaeda is very, very different from the 
relationship between Hezbollah and Hamas. It has a much closer 
relationship with Hamas and, you know, positions itself as a 
defender of the Palestinians and has cooperated with Hamas and 
so forth. I think that is well-documented, and Hezbollah 
officials would be quite open about that.
    Al-Qaeda, I have heard these reports that there have been 
some contacts between some Hezbollah officials and some al-
Qaeda operatives. I have no direct knowledge of this. I have 
heard these reports, but there certainly isn't any kind of 
institutionalized relationship. There have very important 
differences, not just doctrinal, but tactical. You could see in 
Lebanon with these Sunni extremist groups running around that 
tend to be based in some Palestinian camps there that Hezbollah 
is very much opposed to them and was working against them, and 
I think not just rhetorically, but in reality Hezbollah is not 
in cahoots with al-Qaeda, I mean, apart from these perhaps 
reports that may be true--I can't confirm them or deny them--
about certain tactical arrangements. There is no systematic 
relationship between al-Qaeda and Hezbollah as far as I can 
tell.
    Mr. Green. Have we had any indications that Nasrallah, who 
heads Hezbollah, has had contact at some point with bin Laden?
    Ms. Cammett. I don't know. Not to my knowledge. I don't 
think so.
    Mr. Green. Finally, I don't hear a lot about the No. 2 
person in Hezbollah. I know who Nasrallah is. But do you have 
any intelligence on who the apparent successor might be to 
Nasrallah?
    Ms. Cammett. There are a number of people in the Central 
Council there. I wouldn't be able to say which one in 
particular is the successor. Nasrallah has been continually 
reappointed as the head secretary general of Hezbollah.
    Mr. Green. Thank you. Perhaps next time I can ask you a 
question about Lebanon and how they have infiltrated that 
government. Thank you.
    I yield back.
    Mr. Meehan. Thank you, Mr. Green, and to all of our 
colleagues on the panel, for your interest and attendance 
today, and I want to thank this panel not only for your 
perseverance today with us, but your preparation and the great 
opportunity we have had to engage with you. I thank the 
witnesses.
    The Members of the committee may have some additional 
questions. If, in fact, they do, we will ask that you would 
respond in writing, if that is done, within--and the hearing 
record will be open for 10 days for that purpose.
    So, without objection, the committee stands adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
